<html>
<title> - REDUCING GOVERNMENT BUILDING OPERATIONAL COSTS THROUGH INNOVATION AND EFFICIENCY: LEGISLATIVE SOLUTIONS</title>
<body><pre>[Senate Hearing 110-1045]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1045

 REDUCING GOVERNMENT BUILDING OPERATIONAL COSTS THROUGH INNOVATION AND 
                   EFFICIENCY: LEGISLATIVE SOLUTIONS

=======================================================================

                                HEARING

                               before the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 28, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
55-924 PDF                WASHINGTON : 2007
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         LARRY E. CRAIG, Idaho
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
AMY KLOBUCHAR, Minnesota             CRAIG THOMAS, Wyoming
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director







                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 28, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..     4
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....    23
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....    26
Carper, Hon. Thomas, U.S. Senator from the State of Delaware.....    28

                               WITNESSES

Winstead, David, Commissioner, Public Buildings Service, U.S. 
  General Services Administration................................     5
    Prepared statement...........................................     9
Callahan, Kateri, president, Alliance to Save Energy.............    33
    Prepared statement...........................................    35
    Responses to additional questions from Senator Boxer.........    40
Townshend, Melanie, project executive, Gilbane Building Company, 
  on behalf of the Associated General Contractors of America.....    41
    Prepared statement...........................................    44
    Responses to additional questions from Senator Boxer.........    47

                          ADDITIONAL MATERIAL

Charts:
    Frederick C. Murphy Federal Center: photovoltaic roof panels.    14
    San Francisco Federal Building: natural ventilation scheme...    15
    NOAA green roof..............................................    16
Letter from James L. Connaughton, Chairman, Council on 
  Environmental Quality..........................................    18
Fact Sheet, Green Globes, Green Building Assessment and Rating 
  System; LEED Green Building Rating System, Leadership in Energy 
  and Environmental Design.......................................    46

 
 REDUCING GOVERNMENT BUILDING OPERATIONAL COSTS THROUGH INNOVATION AND 
                   EFFICIENCY: LEGISLATIVE SOLUTIONS

                              ----------                              


                       WEDNESDAY, MARCH 28, 2007

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, the Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Alexander, Carper, Inhofe, 
Klobuchar, and Sanders.
    Senator Boxer. The committee will come to order.
    I am very pleased to be here and to welcome our guests. 
They can take their seats at the table: David Winstead, 
Commissioner of the Public Buildings Services, GSA; Kateri 
Callahan, president, Alliance to Save Energy on the second 
panel; and Melanie Townshend, project executive, Gilbane 
Building.
    So just Panel 1, David, and then whoever you brought with 
you if you want to.
    This is going to be a very painless and quick hearing 
because there is such broad agreement on the committee about 
the bill we are going to talk about. We are very pleased that 
the White House has been very supportive of our efforts. We 
have worked with them very, very closely, Senator Inhofe and I.
    I particularly would like to mention, and we really did 
save paper by doing this. OK.
    [Laughter.]
    Senator Boxer. Mr. Connaughton, who we worked with very 
closely, and Marty Hall, who I think the Ranking Member knows 
really well. I just wanted to mention the work that we all did 
together. I am going to put my statement in the record, so as 
to save time. I just want to stress a few things.

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. We have the capability to save a lot of 
money for taxpayers if we put in energy efficient lighting and 
energy efficient technologies. Since this committee does have 
the authority over the GSA and government buildings, it seemed 
to us that this was a way to go. We should be a model of energy 
efficiency.
    The way we did this bill, I am very pleased that we have 
cut through a lot of bureaucracy, because we say to GSA, in 
every single building, every single GSA building, and I will 
tell you how many buildings we have, and I will have to find 
that in here. It will take me a second. OK, here it is, 1,550 
buildings are owned by the GSA, and 7,000 buildings are leased. 
When this bill becomes law, each building will have a manager, 
so that we will have one person in every building responsible. 
It is not an add-on person. We are assigning it to someone who 
is there, and they will be responsible. In essence, the buck 
will stop with that individual.
    The bill requires that we have GSA quickly review available 
highly efficient lighting technologies, replace the old 
inefficient lighting with highly efficient lighting as quickly 
as they can. Within 5 years, they have to finish the test and 
the bill requires that every improvement we make have a payback 
period of no more than 5 years, and after that, the taxpayers 
really start to see savings.
    The bill also requires GSA to complete a broader plan to 
achieve a 20 percent reduction in operating costs in the 
buildings, and they have to do that within 5 years using energy 
efficient technologies and practices.
    Finally, and I think very importantly, our bill creates a 
$20 million per year EPA demonstration grant program to help 
local governments make their buildings 40 percent more 
efficient.
    Now, here is what I want to tell the committee. It seems 
like this is a small bill, but it does have a broad impact 
because there are over 19,000 municipalities in the United 
States and over 3,000 counties. We know many of them have many, 
many buildings. But let's just say for purposes of debate is we 
don't know the exact number, and maybe, Commissioner, you will 
be able to find us a number because I know you are interested 
in this.
    If every entity, city and county, just had two buildings, 
that would be over 44,000 buildings. So you have 44,000 
buildings there and you have thousands of buildings run by the 
GSA, let's say 9,000. You are really talking about a lot of 
buildings. The communities that receive the grant could install 
insulation in addition to making the lighting improvements. If 
it turns out that shade trees will cut down the air 
conditioning bills, they can use the money for that, and so on.
    The last point I want to make is that buildings contribute 
38 percent to the emission of greenhouse gases. So that is 
important, and that is mentioned by the Administration, that 
that is a real spinoff effect of what we are doing. So I think 
we have shown that Senator Inhofe and I, and Senator Alexander 
has been extremely helpful on this, Senator Lautenberg as well.
    As a matter of fact, we have is it nine cosponsors? Nine 
cosponsors of this bill, so we are really proving that we can 
work in a bipartisan way. I look at this bill as a confidence-
building measure for this committee. I am very pleased that 
Senator Inhofe and I have been able to reach agreement on this. 
These things are not as easy as they seem, and we were able to 
work together on this.
    So we are ready to have a hearing on this bill, and then 
tomorrow, we are going to mark up this bill, and we are going 
to mark up WRDA. For that, I want to give a special thanks in 
advance to Senator Inhofe, Senator Isakson, Senator Baucus, 
Senator Alexander, as well as others who really helped us.
    So thank you very much.
    Senator Boxer. Senator Inhofe, if you would like to make an 
opening statement, we would love to hear from you.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chair. [Remarks off mic.]
    I recall back when we were both serving in the House. I was 
the Ranking Member on the subcommittee that dealt with GSA for, 
I guess, 6 of the 8 years that I was there. One of the things 
that I always wanted to be sure is that we didn't impose upon 
the private sector, on the contractors some of the things that 
would end up being a mandate, that would not be to their 
benefit.
    So I think the fact that we have on our panel today Ms. 
Townshend who is going to be testifying that it isn't a problem 
now, but I wouldn't want this to be a predicate to something we 
do in the future that is not in this bill that would perhaps be 
a hardship on the private sector. I don't see that that is 
happening.
    So I look forward to going ahead and getting this done, and 
with this great relationship that we have that we agree so much 
more than people realize.
    [The prepared statement of Senator Inhofe follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Thank you, Madam Chairman. I appreciate you holding this hearing to 
discuss ways to increase efficiency in building operations.
    Innovation and efficiency have been cornerstones of American 
industry and society, from post-Revolution industrialization, to Henry 
Ford's assembly line, to the post-World War II boom, right up through 
today's continued economic growth. Using less to do more has long been 
a principle that has helped the United States become the most 
prosperous Nation the world has ever seen. And along with developing 
new domestic sources of energy and ensuring a diverse energy supply, 
increasing efficiency is an important part of enhancing our overall 
energy security.
    Recent years have seen great strides in the area of energy 
efficiency. Out of 105 recommendations in President Bush's 2001 
National Energy Policy, more than half specifically address efforts to 
improve energy efficiency and to improve the performance and lower the 
cost of alternative forms of energy. Additionally, the President 
recently signed Executive Order 13423, which directs Federal agencies 
to implement sustainable practices for energy efficiency as well as 
high-performance buildings, recycling, and renewables, among others.
    In 2006, 20 Federal agencies and the White House Counsel on 
Environmental Quality signed a Memorandum of Understanding titled 
``Federal Leadership in High Performance and Sustainable Buildings.'' 
In signing on to the Memorandum, these Agencies committed to optimizing 
energy performance and conserving water in their buildings, as well as 
enhancing indoor environmental quality and reducing the environmental 
impact of building materials. The General Services Administration is 
one of the signatories of that Memorandum--welcome, Commissioner 
Winstead, and I look forward to your testimony.
    And the Energy Policy Act of 2005 contains numerous provisions 
pertaining to energy efficiency. There are standards and incentives 
that address private homes, commercial buildings, and Federal 
facilities. There are tax credits available for homeowners and home-
builders who meet energy efficiency requirements, and deductions for 
commercial buildings that meet a 50-percent energy reduction standard. 
New Federal standards include a 30-percent reduction below ASHRAE 
standards in energy use for new buildings, and new standards for 15 
large appliances. According to the Senate Energy Committee, the energy 
savings from the new efficiency standards put forward in the Energy 
Policy Act will be equal to eighty (80) 600-megawatt power plants by 
the year 2020.
    Madam Chairman, I am glad that Democrats in leadership positions, 
such as yourself, are ready to embrace this Administration's stance on 
energy efficiency measures, and I am glad to cosponsor the ``Public 
Buildings Cost Reduction Act of 2007'' with you, although I still have 
some questions about how the program would work. However, in 
considering legislation, we should always be cautious of any new 
mandates we are creating. I welcome today Ms. Melanie Townshend, who is 
testifying on behalf of the Associated General Contractors of America. 
In her testimony, Ms. Townsend will discuss concerns that I have heard 
expressed by many others about favoring one green building standard 
over others in legislation--what would essentially be brand endorsement 
by law.
    I look forward to hearing from each of our witnesses today. Thank 
you, Madam Chairman.

    Senator Boxer. Thank you, Senator.
    I always want to make you feel better.
    Senator Inhofe. I feel pretty good anyway.
    Senator Boxer. But I will make you feel even better because 
you had a little bit of angst over where I might be headed, and 
I want you to know that I served on the Board of Supervisors 
and I believe that planning decisions reside with the local 
people. I do think, though, that what we are doing here will 
make people take a look and see that it makes sense to do this 
for them, because they save money at the end of the day.
    Senator Inhofe. I was Mayor of a major city for three 
terms, four terms I guess, and we looked for things like this 
coming out of Washington, with some skepticism. In this case, I 
think it has passed the test.
    Senator Boxer. Very good. I am very happy.
    With that, Commissioner, please.
    Mr. Winstead. Thank you, Madam Chairman.
    Senator Boxer. I wanted to not bypass Senator Alexander, 
who was so key to us in this.
    I am so sorry. Senator, please?

 OPENING STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR FROM 
                     THE STATE OF TENNESSEE

    Senator Alexander. Thank you for the courtesy. I will be 
short, but I would like to say two things. One is, I wanted to 
thank you and Senator Inhofe for your leadership on this, and 
not only on the substance of it, but in the way you have worked 
on, including other members of the committee on both sides. I 
thank you very much. It is the way I hope the committee can 
work.
    Second, it builds on the Energy Policy Act of 2005 that we 
passed. I was on that committee for the last 4 years, and we 
found on that committee that we had some pretty big differences 
on some issues, but a consensus emerged pretty quickly on the 
value of conservation and efficiency. It was the easiest thing 
to do and the first thing to do.
    We Americans have big appetites, and so we sometimes want 
to use all the energy that we can use. I know I have been 
guilty of that, and we are a big wide open country. But I think 
more and more we are seeing that nuclear powerplants are 
expensive, gas plants are expensive and the gas is getting more 
expensive. Carbon for coal recapture is still a technology we 
have to work on. Energy independence is a problem. Giant wind 
turbines are unsightly.
    So the best option, when we can do it, is conservation and 
efficiency. This is a wonderful way to do it, setting a good 
example so that Mayors and Supervisors and Governors across the 
Country can follow our example.
    The John J. Duncan Building in Knoxville, TN has done an 
aggressive lighting retrofit of the kind in this does. It is a 
Federal building and they have great savings.
    So I thank you for your leadership and allowing me to be a 
part of it.
    Senator Boxer. Thanks so much, Senator.
    Commissioner.

STATEMENT OF DAVID L. WINSTEAD, COMMISSIONER, PUBLIC BUILDINGS 
         SERVICE, U.S. GENERAL SERVICES ADMINISTRATION

    Mr. Winstead. Thank you.
    Madam Chair, Senators, it is nice to be here today. I am 
David Winstead, Commissioner of the Public Buildings Service. I 
was appointed in October 2005. Prior to that, I was with a law 
firm here in Washington that did a lot of real estate work, so 
I have had many, many years background in real estate.
    I am very proud to be here on behalf of GSA and 
representing the Public Buildings Service, and talking to this 
bill and its objectives. As you know, we have some 6,000 
professionals around the Country in 11 regions dealing with our 
real estate portfolio and managing our energy conservation, 
energy efficiency programs.
    I am pleased to discuss some of the activities. You have a 
statement from me in the record that covers a lot of what we 
have done, a lot of the issues that are moving forward on the 
objectives of this bill. I am pleased about the activities that 
we have done to date at GSA to reduce operating costs through 
efficiency and innovation.
    First, I obviously want to thank the committee and you for 
the leadership of not only pushing this bill, but also the 
accommodations in drafting it based upon our experience, both 
with our building operations and our energy efficiency 
initiatives.
    Also the goals are achievable. I agree with the chairman of 
the Council on Environmental Quality who has submitted a letter 
in support of this proposed bill, so we are in concurrence. My 
full statement supports this legislation.
    Today, I would like to just do some brief introductory 
remarks. I would like to focus in on our energy management 
activities, addressing three basic areas. First starting with a 
synopsis of things that we have done at GSA to date. Madam 
Chair, we chatted about that a little bit before the hearing. 
Then discuss some of the new directions that we are taking, 
both in our building program, new buildings underway. We have 
built over 50 new courthouses since 1992, as well as finish 
with some suggestions as to how we would deal with this 
legislation and implement it.
    Your statement was accurate in terms of the consumption 
buildings take. Some 40 percent of total energy used is 
consumed by buildings around the United States, and about 70 
percent of that consumption is in electricity. At GSA, we are 
demonstrating energy reduction and cost savings through both 
integrated design of our new buildings. We have a Design 
Excellence Program that I know this committee is well aware of, 
that currently has 15 courthouses in the pipeline and many 
ports of entry. We are looking for energy reduction, cost 
savings, and design implementation to save money and to have 
more efficient lighting and heating and cooling systems.
    What we have done to date is between 1985 and 2005, we 
actually had reduced our energy consumption by 30 percent. In 
2006, we achieved about a 4.7 percent reduction from a 2003 
baseline, compared to the Energy Policy Act requirement of 2 
percent. So we essentially are exceeding that benchmark of the 
2005 Energy Policy Act by about 2.7 percent.
    Since nearly 30 percent of the energy used in buildings is 
for lighting and office equipment, we have targeted lighting 
early on. Our goal of 10 percent reduction between 1985 and 
2000 was largely achieved through lighting retrofits. Today, we 
are welcoming a new generation of lighting systems and 
controls.
    I would mention that Kevin Kampshire is here today. He is 
our Director of Research and our energy expert. If you have any 
additional questions you might like on technology, I would be 
happy to have him address that.
    During the 1990s, as my statement mentioned, we basically 
were changing from T8 bulbs to 2T8 bulbs, which essentially 
used electronic ballast. This was a major initiative during 
that period of time. For example, in the new Arraj Courthouse, 
which we do have brochures for the committee today, and we do 
develop these for all of our buildings, portraying their energy 
efficiency and systems in place.
    In that building, we actually incorporated energy and 
lighting efficiency in designed structures. I actually toured 
it not too long ago. Natural light is available through 75 
percent of that courthouse, which is amazing when you are 
walking through the corridors going to the courtrooms. We have 
taken maximum use of the exposure of the light and the 
positioning of the building. We are leaders in the purchase and 
use of renewable power, with about 3.285 million BTUs in 2006. 
In 2006 alone, 2.5 percent of our energy was attributable to 
renewable power, versus the national average of about 2.3 
percent. So then we exceeded by 2.2 percent the national 
average.
    This includes buildings, for example, the Binghamton 
Federal Building in New York, which is the first Federal 
facility powered 100 percent by renewable energy. This power 
flows from a new wind turbine in Fenner, NY. We are under 100 
percent wind-powered purchase for the National Park Service. As 
you know, we service 50 to 60 agencies to provide electricity 
for the Statue of Liberty. So the Statue of Liberty is now 
powered by wind power.
    In fiscal year 2006, we generated renewable energy from 
solar and geothermal projects. We also funded photovoltaic 
projects. For example, at the NARA facility for the archives in 
Waltham, MA, we incorporated a photovoltaic panel on the roof. 
I do have a copy of this. This is essentially the paneling that 
we put on the roof of the building that is actually the surface 
material for the building roof and incorporates the 
photovoltaic panels, so no longer do you have those very 
burdened, big panels, but it is actually incorporated into the 
materials of the structure. There is a picture of that that I 
think we have distributed to the committee.
    In addition, we are funding a large photovoltaic PV system 
at the Denver Federal Center, which is a very exciting project, 
about 6.6 acres incorporated in that Energy Center. But the 
Denver Federal Center is over 200 acres that we are 
redeveloping for Federal tenants to use, and actually 
incorporating transit. There is a new transit line going out to 
Lakewood, CO that we are actually looking to build off 
densities in the location of Federal workers in order to take 
and foster new public transit.
    Through the Denver Federal Center, we are saving about 
$65,000 per year on electricity, while generating about 
$340,000 in revenue through renewable energy credits. We are 
both saving money as well as generating energy credits.
    In our ongoing operations, we actively manage our energy 
use through good management practices, including monthly 
tracking of energy consumption, ongoing energy audits of our 
buildings, as well as investments obviously authorized by this 
committee and Congress through our new prospectuses. Our 
operating costs are basically 5 percent less than similar 
buildings. You will hear from some industry people today, but 
we benchmark against BOMA operating costs and we are basically 
5 percent below their operating costs.
    We also pay 12 percent less for our utilities thanks to 
GSA's energy experts that compete competitively natural gas and 
electricity and green power. As I mentioned earlier, this is a 
service to all our Federal agencies who wish to be included.
    To talk about some of the new directions, the President 
challenges all Federal agencies in his recent Executive Order 
13423 to reduce energy consumption, increase the use of 
renewable energy, and continue to find new technology. Our 
initiatives have included new monitoring systems to help power 
down computers when people forget to turn them off.
    You have pictures of the new NOAA facility. I think it is 
right here. This is this wonderful new structure in Suitland, 
MD. Madam Chairman I invited earlier, and I would like to 
extend it to all the committee to come out and view both this 
facility and our new White Oak Campus for the FDA. This green 
roof, which has been incorporated in the NOAA building in 
Suitland, is not only saving us energy, but also is 
aesthetically very, very pleasing in terms of a promenade where 
employees of NOAA can actually walk out onto the paths, onto 
the roof.
    A new innovative building, as you might know, in San 
Francisco will be dedicated this summer. It is designed to use 
natural ventilation. The multi-stories office tower portion of 
this relies on low humidity and moderate temperatures of the 
San Francisco Bay Area, rather than mechanical air 
conditioning. This rendering shows the San Francisco office 
building that is largely completed. It will have a dedication 
in the summer, as I mentioned.
    Yes, Senator?
    Senator Inhofe. Did I understand that you said this is 
without refrigeration? Is this what you are talking about?
    Mr. Winstead. Senator, it is. The tower portion of this 
building is essentially naturally cooled by the air flows that 
are coming from the San Francisco Bay Area, both by the 
positioning of the building. There is a portion of the building 
on the left side that for security reasons we had to have 
enclosed, and that does have an HVAC system. But the large part 
that you are viewing here is essentially cooled by natural air 
flow.
    Senator Inhofe. How many stories is that?
    Mr. Winstead. Sorry, sir?
    Senator Inhofe. How tall?
    Mr. Winstead. I think it is eight stories, Senator.
    Also, and I mentioned the FDA campus. We have a combined 
heating and power system at the FDA campus which we are now 
relocating from leased facilities in another part of Montgomery 
County. It uses heat from electricity production to both heat 
water, as well as the building air conditioning system.
    I think GSA and the Federal Government needs to continue to 
be a leader in all this, and by continuing to demonstrate and 
test these new technologies, we can select strategies for a 
wide variety of buildings in our inventory. But some of the 
best opportunities we think for improving energy efficiency lie 
in building modernization. As you know, out of our 1,500-odd 
buildings, a lot of them are in the 1970s and 1980s and do 
require enormous renovation. We devote $1 billion a year more 
into renovation than capital programs.
    We have actually realized a 60 percent drop in energy 
consumption, for example, following the modernization of the 
Bennett Federal Building in Jacksonville, FL. In Knoxville, TN, 
the John J. Duncan Federal Building in Knoxville attained an 
energy STAR rating of 94 and qualified for LEED certification, 
which is a certification for energy efficiency. We saved 
approximately 1.7 billion BTU in fiscal year 2005, and saved 
about 400,000 gallons of water every year as a result of this 
energy efficient technology.
    To move on to some conclusions and suggestions, I would 
mention----
    Senator Boxer. I am going to have to ask you to summarize.
    Mr. Winstead. Yes, ma'am.
    Basically, just to conclude, we very much appreciate your 
support and the authorization that we get about $30 million a 
year for energy retrofitting because of our modernization 
program. For our capital programs, you will be seeing in the 
prospectuses coming to this committee what is intended in the 
building systems for new courthouses, ports of entry and others 
that we are building. With regard to renewable energy, we do 
have a suggestion in terms of basically lengthening the time 
that we have for current the current statute of limitations 
from 10 years to 20 years, that we think will create more 
economics in renewable energy, and allow us to purchase more of 
that.
    Madam Chair, that will conclude my remarks. I appreciate 
this opportunity. I hope some of these projects--it is an 18-
story building, Senator, the San Francisco building, 18 
stories--and we hope that these brochures that we will submit 
with our testimony are helpful. We do have the NOAA facility 
which talks about the energy systems there. We do have the 
Arraj Building brochure that I mentioned, and also a state of 
our portfolio that overviews all of our 1,500 buildings around 
the Country.
    [The prepared statement of Mr. Winstead follows:]
Statement of David L. Winstead, Commissioner, Public Buildings Service, 
                  U.S. General Services Administration
    Good morning, Chairman Boxer, Ranking Minority Member Inhofe and 
Members of the Committee. My name is David Winstead and I am the 
Commissioner of the Public Buildings Service in the U.S. General 
Services Administration (GSA). Thank you for inviting me here today to 
discuss GSA's activities to reduce Government building operating costs 
through efficiency and innovation. Today, I will concentrate my remarks 
on the areas that affect energy consumption. I will start with a 
synopsis of things we have done, discuss the new work we are 
undertaking, and finish with a couple of ideas that may aid this 
Committee, or others, in addressing this important issue. But first, I 
must thank the Committee and staff for the consideration and 
accommodation in drafting proposed legislation about lighting and 
energy conservation. We believe that working together, the bill as it 
now stands is achievable and provides GSA an opportunity--which we 
welcome--to demonstrate practical ways that the government can improve 
operations, save energy, and improve the work environment. I also 
understand that the Chair of the Council on Environmental Quality has 
submitted a letter to the Committee; I have read the draft of that 
letter and concur with the support it expresses for this proposed bill. 
We recognize that buildings in this country consume about 40 percent of 
the total energy used in the United States and as much as 70 percent of 
the electricity. GSA has an opportunity--and a responsibility--to lead 
by example and to demonstrate how we can reduce energy consumption by 
intelligently integrating energy efficiency in building design and 
still create places where people can work effectively.
                    past energy conservation efforts
    GSA has always made significant investments in energy saving 
solutions. In fact, between 1985 and 2005, GSA achieved a 30 percent 
reduction in energy consumption. Our utility costs are consistently 
lower than those in the private sector. In 2006, GSA reduced the 
overall energy consumption of its Federal inventory by 4.7 percent 
compared to 2003 in response to the goals set in the Energy Policy Act 
of 2005. We achieved this reduction by direct investment in energy and 
water conservation opportunities coupled with the concerted efforts of 
our property managers working together with our tenants.
Lighting
    Nearly 30 percent of the energy used in buildings is for lighting 
and office equipment. During the early 1990s, GSA extensively 
retrofitted existing building lighting systems--this was the ``low 
hanging fruit''--by changing from T-12 lamps with magnetic ballasts to 
T-8 lamps with electronic ballasts, coupled with motion sensors and new 
combinations of reflectors and prismatic lenses. In fact, GSA met its 
early energy reduction goals of 10 percent between 1985 and 2000 
primarily through these retrofits. Since then, GSA has moved towards a 
combination of alternative and direct financing of a new generation of 
integrated lighting controls. While these are initially more costly and 
more technologically challenging, they provide greater energy savings 
in the long run. Interestingly, many projects were done in conjunction 
with GSA's Chlorofluorocarbon (CFC) chiller replacement initiative. As 
we replaced old chillers that used ozone-depleting CFCs, we sought to 
reduce the size of the new chillers by reducing the heat created by the 
older, less efficient lighting systems.
    It is interesting to note that today there is nearly 400 times as 
much artificial lighting in buildings than there was a century ago--and 
research is showing that the standards of even ten (10) years ago put 
more light than we need in offices.
    As we move toward the future, GSA is incorporating numerous 
lighting initiatives in our workplaces that take advantage of 
sophisticated strategies, such as daylight harvesting, and commercial 
products that differentiate between task specific and ambient lighting 
requirements.
    The Alfred A. Arraj U.S. Courthouse in Denver is an excellent 
example of how a variety of sustainable design strategies can work 
together for energy and lighting efficiency. The public corridors of 
the building are oriented to the southeast to maximize solar exposure. 
Oversized windows provide visitors with a connection to the outdoors 
and magnificent views of downtown Denver. High efficiency triple-glazed 
windows minimize the need for heating and cooling. Internal light 
shelves bounce daylight onto light-colored surfaces so that it is then 
reflected deep into the interior. Even the light-colored limestone 
floors contribute to the daylighting. Fluted glass panels bring 
diffused daylight into the interior courtrooms and other spaces. 
Overall, natural light is available throughout 75 percent of the 
building.
    Our regional offices in Atlanta and San Francisco are piloting 
several types of advanced energy efficient lighting systems for 
offices:
    (1) ``Intelligent Lighting'' using light ballasts that can be 
individually controlled by each person's computer, and are tied into 
advanced controls that monitor activity
    (2) Task-Ambient Lighting for Low Ceilings
    (3) Fixture retrofit that provides individual light control and 
that does not require re-wiring
    By demonstrating and testing these new technologies, GSA gathers 
the information necessary to select the strategy appropriate for the 
different building conditions in its diverse inventory. For instance, 
intelligent lighting is initially more expensive and more complex, but 
offers an unprecedented energy savings, while task/ambient lighting for 
low ceilings provides an energy effective solution for a lower budget 
and is simpler to install and maintain.
    Major challenges to future improvements in lighting efficiency are 
the old suspended ceilings. At this point, newer, high efficiency 
fixtures do not fit in old suspended ceilings. In the meantime, we are 
working with our customers to find ways to reduce our energy 
consumption. This can be as simple as remembering to turn off the 
lights!
Renewable Energy
    GSA is one of the nation-wide leaders in the purchase and use of 
renewable power. We also consider opportunities for solar and other 
renewable energy in our building design and retrofit programs. In 2006, 
4.5 percent of our electricity was generated from renewable power or 
bought through renewable energy certificates, compared with the 
national average of 2.3 percent. And, as the cost for electricity and 
natural gas has increased, we have found more opportunities to buy 
renewable power at competitive prices.
    Over the last 4 years, GSA has purchased a total of 949,984 Mega 
Watt Hours (MWH) of energy from renewable sources through competitive 
power contracts and through the use of green power programs offered by 
local distribution companies.
    <bullet> The Binghamton Federal Building in New York State is the 
first Federal facility in the Nation powered by 100 percent renewable 
energy. The power flows from a new wind turbine installed at the Fenner 
Wind Farm in the town of Fenner, New York. This project not only 
demonstrated GSA's commitment to energy independence and environmental 
stewardship but also helped to spur economic growth of a new industry 
in a small community economy.
    <bullet> GSA awarded a contract to supply the National Park 
Service's Statue of Liberty and Ellis Island with electricity generated 
from 100 percent wind resources. The 3-year contract will supply 
approximately 28 million kilowatt hours of renewable energy to the two 
landmark sites. The Statue of Liberty is not only a beacon of freedom 
to the rest of the world, but also a welcome sign of the future in 
renewable energy.
    In Fiscal Year 2006, GSA received an estimated 3,285 Million 
British Thermal Units (MMBtu) in energy from self-generated renewable 
projects. We estimate that:
    <bullet> 543.7 Megawatt Hours (MWH) of the total came from GSA's 12 
Solar Photovoltaic installations,
    <bullet> 600 million btus came from GSA's two solar thermal 
projects, and
    <bullet> 830 million btus came from the one completed geothermal 
project.
    In Fiscal Year 2006, GSA funded two new photovoltaic (PV) systems: 
The first is a 40 kilowatt array at the Trenton Courthouse Annex. The 
2nd is a 300 kilowatt Building-Integrated PV system at the National 
Archives and Records Administration (NARA) facility in Waltham, 
Massachusetts (near Boston). The NARA facility demonstrates a 
completely integrated roof and solar system--the solar panels are the 
roof. The flexible, flat panel photovoltaic array is heat-welded into 
the roofing material and qualifies as a ``Cool Roof'' under the U.S. 
Environmental Protection Agency's EnergyStar program. The project is 
estimated to save approximately $204,000 and 5,550 million btus 
annually.
    Just this year, we funded a project at the Denver Federal Center 
(DFC) that will provide one megawatt solar photovoltaic facility on 6.5 
acres. The array will save $65,000 per year in electrical charges while 
generating $340,000 per year in revenue through the sale of renewable 
energy credits. The energy obtained from the solar park will be fed 
directly into the electrical grid and used at the DFC.
                          on-going operations
    GSA actively manages its buildings. We currently operate our 
buildings at costs 5 percent below private sector comparable buildings, 
and for utilities we pay 12 percent less. Some of this lower cost is 
directly attributable to the investments the Congress authorized and 
GSA executed in energy conservation projects over the past 15 years.
    Competitive Energy Procurements.--GSA's energy experts develop 
procurement strategies for natural gas, electricity and green power to 
achieve the best competitive price, taking into account the facility's 
organizational goals--which may include budget stability, energy 
reliability and security. We provide this service to all Federal 
agencies--it is part of our mission.
    Public Utilities.--To negotiate the best rates, GSA awards large 
public utility area wide contracts for electricity, natural gas, steam, 
chilled water, and water and sewage services that are regulated by 
public utility commissions, utility cooperatives or municipal utility 
companies. In many cases, these contracts allow for demand side 
management services, which include alternative financing for energy 
projects. In addition, GSA provides leadership in developing 
contracting vehicles, allowing end-users to meet multiple Federal 
energy requirements in both public law and executive orders.
    Energy Tracking.--We track energy consumption monthly at every GSA 
facility. Our system provides the status of energy trends as they 
relate to past or future building actions.
    Energy Audits.--GSA continuously conducts energy audits and retro-
commissioning studies of its inventory to identify life-cycle cost 
effective energy conservation measures. Approximately 10 percent of our 
space inventory is audited in any given year.
New Directions
    GSA is piloting a new chiller efficiency monitoring and analysis 
tool in 14 buildings with 34 plant chillers of varying sizes. If 
successful this operational tool will:
    <bullet> Serve as a specific indicator of problems in chiller plant 
equipment and operations.
    <bullet> Improve the efficiency and extend the life of existing 
chillers and related equipment.
    <bullet> Provide optimal cost effective and efficient remedial 
action to repair, replace, and enhance chiller plant operations
    <bullet> Provide energy savings, lower carbon emissions
    <bullet> Reduce future capital expenses
    <bullet> Reduce equipment down time resulting in reliable service 
to customers
    We are working with one of our large customers to integrate power 
controls into their IT operations--establishing a monitoring system 
that will reduce the electricity consumed by computers when people 
forget to power down as they leave--no work gets lost, but substantial 
electricity is saved. And speaking of computers, our customers can help 
us dramatically reduce the energy they consume by replacing old TV-like 
monitors with flat screens. Flat screen (LCD) monitors use only one-
third the amount of electricity as the old TV monitors, are better for 
the worker--less eye strain--and produce less heat that we have to 
dissipate with air conditioning.
                                 future
    The President has challenged all Federal agencies in his recent 
Executive Order 13423 to reduce our energy consumption, to increase the 
use of renewable energy and continue to find new technologies. We will 
continue to use existing energy reduction measures, but we are also 
researching new technologies that can help us reduce energy consumption 
and reduce overall costs to the Government.
    Currently, GSA is increasing its participation in load curtailment 
and demand management programs sanctioned by utility companies and/or 
system grid operators to further refine its lighting use. As energy use 
generally peaks in the late afternoon for a short period of time, we 
try to quickly reduce the major consumer of electricity in our 
buildings: lights. We are looking at sophisticated lighting systems 
that reduce illumination levels significantly enough to reduce total 
building demand and still leave enough light for building occupants to 
perform their work. In addition, GSA is strategically issuing 
competitive electricity contracts in deregulated markets with contract 
language that optimizes our demand limiting capability, thus resulting 
in lower rates.
    As I speak, we are changing our design guidance to reflect the new 
legislative and Executive Order requirements. I should point out, even 
without these revisions, our current version sets high standards for 
lighting efficiency. This does not, however, diminish the need for 
major improvements. For example, our latest standard--not published 
yet--is to design for interior lighting at or below 0.9 watts per 
square foot. In the 1970s, a typical installation would have been as 
much as seven times as high, typically between 4 and 7 watts per square 
foot.
    Newer, more efficient lighting systems not only allow us to reduce 
energy used for lighting, it also reduces the amount of heat produced 
by the lights themselves. In turn, this will reduce the air 
conditioning needed to cool a building, reduce the size of the 
mechanical system and result in even greater energy savings. Although a 
simple concept to understand, this approach demands an integrated, 
whole building approach using recognized sustainable design principles. 
To help us measure how well we are achieving an integrated, whole 
building approach, GSA uses the LEED (Leadership in Energy and 
Environmental Design) rating system in the design of New Construction 
and Major Alteration projects.
    GSA has incorporated the sustainable design practice of Green 
(planted) roofs in some of our projects. These roofs range from small 
tray systems to entire garden roofs. In Suitland, Maryland, we have 
built one of the largest green roofs in the country, covering 170,000 
square feet--nearly four acres. Green roofs reduce energy costs by 
insulating the building and they also serve to reduce the ``heat 
island'' effect that is produced by large buildings in urban areas. 
Green roofs are also beneficial because they capture rainwater, which 
serves to reduce water runoff into our sewer drains and in this area, 
into the Chesapeake Bay.
    In San Francisco, GSA is constructing a remarkable new Federal 
building that minimizes its energy consumption by taking advantage of 
favorable local conditions. This building is designed to self-ventilate 
its occupants through a rather simple movement of airflow not from air 
handling and cooling coils units but natural ventilation. That is a 
great example of avoiding energy use. In the tower, there is no air 
conditioning. The design of this building takes advantage of, and is 
very sensitive, to the low humidity and moderate temperatures of the 
Bay area. Simply put, its design is a good fit with its location.
    The Energy Policy Act directs us to install advanced metering. We 
will be doing that over the next few years, dependent on funding. We 
started installing advanced meters in the Washington, DC and New York 
areas even before the law required us to do so. In the long run, 
advanced meters will save money by allowing us to manage power 
consumption more strategically. For example, GSA was able to contribute 
to the electrical management in the Washington area last summer by 
``shedding load'' sometimes allowing buildings to get a little warmer 
and more humid in the late afternoon--and thus, we helped avert major 
brown-outs in this area. Perhaps more importantly, advanced metering 
will help us buy power at better prices, because we will know our use 
patterns in a way we just do not today.
    Combined heat and power (CHP) systems can also be a source of both 
energy security and savings. The Food and Drug Administration Office in 
White Oak, Md. is a great case study. Using an energy savings 
performance contract (ESPC) to install a 5.8 megawatt CHP facility as 
part of the first phase of the campus build-out, we saved more than 37 
million kilowatt-hours, $1.4 million in energy costs and $2.1 million 
in annual operation and maintenance costs (FY 2003 data). The plant 
provides reliable, uninterrupted on-site electric generation capability 
for three facilities on campus--a laboratory, office building and 
multi-use facility. Heat is recovered from the generating process to 
produce hot water for building use and in the absorption process to 
produce chilled water for air conditioning. The thermal efficiency of 
the plant is increased by 30 percent while significantly reducing 
pollution emissions. Furthermore, we plan to expand this system to 
support 100 percent power generation for the entire campus once the 
campus is complete. This will reduce the 25 megawatt load that the 
local utility would otherwise have to accommodate.
                                funding
    Some of the best opportunities for dramatic energy conservation are 
in building modernizations. This requires capital but we can realize 
significant pay-back. A couple of examples:
    U.S. Department of Energy Federal Energy and Water Management Award 
recognized GSA's work on the Charles E. Bennett Federal Building in 
Jacksonville, Fla., for its holistic redesign effort. Post-renovation 
building energy consumption dropped more than 60 percent. Usage was 
reduced by 23,781 thousand million btus, which is enough energy to 
power 208 homes for one year.
    The John J. Duncan Federal Building in Knoxville, Tenn., 
successfully attained an Energy Star rating of 94 and qualified for 
LEED certification. Through the execution of a comprehensive building 
re-commissioning and installation of a new building control system, 
along with lighting upgrades and motion sensors, this resulted in 
savings of approximately 1.7 billion btus in FY 2005, exceeding FY 2005 
energy reduction goals by 33 percent. The restrooms were also 
retrofitted with water-saving equipment, and new secondary meters were 
placed on water supplies to reduce water sewage and runoff charges, 
saving 400,000 gallons of water on a yearly basis.
    In GAO's testimony in 2003, they noted that the backlog of repair 
and alteration needs in GSA-controlled Federal buildings had a direct 
impact on the energy efficiency of the buildings, including aging and 
inefficient plumbing, heating, ventilation, and air conditioning 
systems
    In recent years, GSA has been requesting--and Congress has been 
appropriating--about $30 million annually for energy retrofit 
projects--in addition to what is included in building modernization and 
new construction project budgets or funded by Energy Savings 
Performance Contracts (ESPCs). We anticipate that the higher 
conservation goals will increase that amount, and welcome the 
opportunity to discuss that matter in the course of future years' 
budget submissions.
    It might be helpful if there were some flexibility in capital 
projects (the ones for which we submit prospectuses) for GSA to 
incorporate energy savings technology that was not included in the 
design at the time the prospectus was submitted.
    We also understand that for some renewable energy, wind power in 
particular, if the Government were able to purchase power for a longer 
period than the current statutory limit of ten (10) years, it might be 
possible to both obtain very good prices for the Government, and 
provide the financial security that would spur the development of new 
sources of renewable power.
                               conclusion
    Thank you for the opportunity to talk about GSA's leadership role 
in this area. I look forward to working with the Committee on this 
matter of vital interest to our country.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. Thank you very much. It was excellent 
testimony.
    Senator Inhofe was asking about the San Francisco building. 
It is fascinating, but I wanted to share with him what Mark 
Twain once said, ``The coldest winter I ever experienced was 
the summer in San Francisco.'' Because it does get chilly 
there, and we do have the advantage/disadvantage of having 
these amazing cool-downs that Mother Nature has provided. That 
is why it makes so much sense, and you can't have a one-size-
fits-all, obviously, because weather patterns differ.
    But one of my biggest gripes I have had, and it had nothing 
to do with, because when I was younger, I frankly wasn't 
thinking about energy efficiency, was that you go into a 
building where you really didn't want the air conditioning. You 
wanted to just open a window. You couldn't open a window. Even 
at that point in my life, I said, this can't be healthy; we 
just keep breathing in this air, when we could just open a 
window, and there was no window to open.
    Simple things like that are going to make a big difference. 
As you say, siting buildings where they get the benefit of the 
sun. Just simple things are going to make a big difference.
    I am very happy with your testimony. I think you just 
showed us that you are very aware of this. I have a few 
questions, but I wanted to, before I start them, and it will 
take about 4 minutes for my questions, ask unanimous consent to 
place in the record the letter from James Connaughton of the 
CEQ, Council on Environmental Quality, where he says he 
expresses his appreciation to this committee for working with 
them and exchanging ideas on this bipartisan legislation.
    Also on the fact that the legislation will present an 
excellent opportunity to accelerate the GSA Lighting Retrofit 
Program, because at the rate we were going, colleagues, you 
know, this could have gone on for 9 or 10 years before it was 
done. Now we are frontloading the Executive order of the 
President, pushing it forward. As Mr. Connaughton said, the 
bill also provides for an acceleration of the overall energy 
efficiency goals in the Executive order. Then he goes on to say 
he is pleased the bill recognizes the benefits of local 
governments taking steps to improve their efficiency.
    So I will put this letter in the record.
    [The referenced document follows.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Boxer. I consider this a real milestone that we 
were able to develop this with the Administration, and all of 
us working together.
    A couple of questions. I wanted to ask you, Commissioner, 
because I was the one who was very strong on having an 
individual in each GSA building that is responsible for this. 
Do you feel that is a good workable way to go?
    Mr. Winstead. Senator, as you know, that requirement or 
suggestion in the bill has been reviewed by our people, and we 
are comfortable with that. We do have full-time property 
managers that are constantly managing the operation units in 
the building, monitoring the energy. So I think it is 
sustainable to have that focus that is directed by the 
legislation.
    Senator Boxer. Right. You can just name whoever you think 
is the right person, and just make sure that they are 
responsible, because one of the things that I have learned 
after all these years is what went wrong--it is this guy. You 
know? We just want to have that person that is responsible.
    You mentioned it would be helpful, and I don't think that 
this issue--does this issue reside with us, the contract length 
of time? It resides with the Energy Committee?
    Mr. Winstead. It resides with Homeland Security and 
Governmental Affairs.
    Senator Boxer. OK. I just wanted to mention, colleagues, 
that Mr. Winstead pointed out that flexibility in purchasing 
renewable energy over longer periods of time would be 
beneficial to GSA. So the current statutory limit of 10-year 
contracts, if that was increased, I understand you feel it 
would give you more flexibility and would help you purchase 
more renewable energy. Is that correct?
    Mr. Winstead. That is correct, Senator.
    Senator Boxer. OK. So Senator Inhofe, are you still on the 
Energy Committee?
    Senator Inhofe. No.
    Senator Boxer. OK. Is anybody else on the Energy Committee? 
OK.
    Well, why don't we talk about this because they are being 
hampered. They want to buy renewable energy in longer term 
contracts, but the law says now the most they can go out is 10 
years. So Senator Sanders, if we could work together on that, 
it would be just great.
    Mr. Winstead, you mentioned GSA has retrofitted many 
building lighting systems. What portion of GSA buildings still 
need to be retrofitted?
    Mr. Winstead. Senator, basically between 2000 and 2003, 
managed five projects with energy consumption savings of about 
18 percent, so we do have a huge number that still are in the 
inventory. The GAO report in 2003 looked at basically 44 
buildings and calculated that we needed another $20 million per 
building to really get them totally modernized, to incorporate 
both lighting as well as the HVAC in efficient systems updates.
    I will tell the committee that it is a constant challenge. 
I know that Senator Inhofe spent some time in the real estate 
industry. We are managing a huge portfolio that has a state of 
it that does require a lot of reinvestment. We are very focused 
on both the lighting efficiencies, the ceiling issues, as well 
as the task-oriented lighting and intelligent systems that we 
will be putting into the prospectuses for modernization 
projects. This isn't something that we are viewing as a non-
core function. We are actually incorporating these new 
technologies in the prospectuses for these building 
modernization programs.
    Senator Boxer. All I am interested in is knowing how much 
more we have to do.
    Mr. Winstead. I think it is probably, with some of these 
older buildings, we are looking at as much as $10 million to 
$15 million.
    Senator Boxer. Per building to really get it up.
    Mr. Winstead. Yes. We can actually get you a breakdown.
    Senator Boxer. That is what I was going to ask you.
    Mr. Winstead. I would be happy to do that.
    Senator Boxer. If you wouldn't mind sending Senator Inhofe 
and I a letter, as well as the rest of the committee.
    Mr. Winstead. Sure.
    Senator Boxer. Just tell us straightforward what is the 
need, then we will take a look at it and see if we can help. I 
think the important think is also to tell us the payback period 
for these improvements, because frankly if we make an 
investment and the taxpayers are made whole in 5 or 6 or even 7 
years, especially in the GSA-owned buildings. In the leased 
buildings, with long-term leases, it makes sense. With shorter 
term leases, obviously we don't want to spend taxpayer money as 
a gift to some private person. We want to make sure the 
taxpayers receive the benefit.
    Last question.
    Mr. Winstead. Sure.
    Senator Boxer. Our second panelist, Ms. Callahan, notes in 
her written testimony that GSA still includes inefficient and 
outdated equipment such as incandescent lights, old ballast 
technology, and old computer systems on its procurement 
schedules, despite legislative mandates to the contrary.
    Now, I don't know if she is right or wrong on the point, 
but could you tell me today you are prepared to respond to 
that, whether or not your procurement schedule has been updated 
to reflect legislation that passed here in the Energy bill and 
so on?
    Mr. Winstead. Senator, that is under the Federal supply 
schedules, on the FAS side of the ledger. I do believe it is 
fair to say that in terms of our new construction, in terms of 
our modernization, we are focusing on this technology. I will 
provide to the committee what the issues are on the FAS side 
that have been highlighted by industry.
    Senator Boxer. I think it would be excellent because if we 
are still purchasing the old--you know, one of the great things 
about our ability to change things is the power of the purse. 
If we use our funding wisely and we create the demand for these 
products, I think that is the way to go, rather than buy the 
old technologies and at the end of the day, we will probably be 
getting rid of them soon enough.
    So if you could get back to me on both of those, how much 
you need per building, just an honest assessment, and also if 
you could look over that schedule and see if you agree with Ms. 
Callahan on that, and what you are going to do about it. OK?
    Mr. Winstead. I will do so.
    Senator Boxer. Thank you.
    Senator Inhofe?
    Senator Inhofe. Madam Chairman, I don't have any questions. 
I think you asked the right questions. I did read the longest 
section, section 2, some six or seven pages, and I would just 
want your assurances that the timeline for implementing these 
things that are found in that section is going to be workable.
    Mr. Winstead. Senator, I appreciate that. Obviously, it is 
a challenge. It is much quicker than the Executive order was 
dictating, but we have reviewed it and we do think we can 
manage with that time schedule. As this moves forward and this 
legislation gets passed, we would be happy to obviously keep 
the committee informed about how we are doing. But we have 
reviewed it in terms of the requirements, 6 months, the 9 
months side of it, and we are comfortable with it. This 
committee and the staff has been very engaged and we have been 
wrestling around, can we do this.
    Senator Inhofe. If you find that you are wrong, you can let 
us know.
    Mr. Winstead. I am sorry, Senator. What?
    Senator Inhofe. I said if you find that you are wrong, you 
can let us know.
    Mr. Winstead. Absolutely, absolutely.
    Senator Inhofe. All right.
    Senator Boxer. But if you find that it is working, let us 
know.
    [Laughter.]
    Mr. Winstead. Yes. We have also started collecting data on 
this, so that we are sort of moving in that direction.
    Thanks, Senator.
    Senator Boxer. Senator, thanks.
    We are going to do the early bird rule, so Senator 
Alexander, and then we will go to Senator Sanders and Senator 
Klobuchar.
    Senator Alexander. Thank you.
    I only have one question, which is a little different 
because I said earlier what I thought about the importance of 
this legislation and how much I appreciate the approach you are 
taking.
    I want to ask you a question about aesthetics. Technology 
is a great advantage for us as we try to deal with energy. It 
might help us figure out carbon recapture. You have just 
described a way that we may through intensive lighting retrofit 
save huge amounts of electricity and set an example for others. 
But one of the problems with technology is it sometimes 
disturbs or destroys the great American outdoors, the American 
landscape.
    For example, we all like to use our cell phones and 
Blackberries, but we have had 200,000 cell towers to up in the 
last few years. In Tennessee at least, I think they must enter 
a contest to see who can pick out the ugliest one and biggest 
one, and put it in the most scenic place.
    Solar panels, and I have discussed this with the solar 
panel industry. I am the sponsor of the tax credit for more 
solar power. But originally, they were developed without any 
aesthetics in mind. I actually think it is a limit on the 
ability of solar power to expand because people don't want ugly 
things on their roofs, just like they want their front yard to 
look good.
    There is a place for wind power in our country, but when 
you said, you know, the Statue of Liberty was operating on wind 
power, I had a first thought that you have all these big super-
sized wind turbines right around the Statue of Liberty, which 
is not the case.
    So I wonder if, as part of your mission with these 1,500 
buildings, you might help the rest of the country understand 
how to use renewable energy like solar, wind and other things, 
in aesthetically pleasing ways, because I think that is 
actually one of the major limits on its ability to be accepted, 
and that you can provide a real service on that, as well as 
keep our Country looking good. We sing about America the 
Beautiful, and whenever we start to put oil rigs on the 
seashores, the Chairman puts up pretty pictures of the 
seashores. I agree with that.
    So I would like to find ways to have an aesthetically 
pleasing as possible with this new technology that we are 
developing. Do you have any comment on that?
    Mr. Winstead. Senator, your point is well taken. The 
original technology for solar panels, a lot of them were on the 
sides of buildings.
    Senator Alexander. They were functional.
    Mr. Winstead. Yes, but this, for example, is the one I 
mentioned. This is essentially the roofing for the buildings. 
We are incorporating the panels in the roofing, which is no 
different than you would see with just a rubber roof.
    The issue of wind power is obviously, you are correct, 
there are no wind turbines around the Statue of Liberty 
currently, but that power is coming from wind-generated 
turbines. I would hate to take back to my community in Chevy 
Chase the concept of putting wind turbines to generate local 
power. There are aesthetic issues.
    What I will commit to is to make sure that our reflection 
of both the solar use and what we are doing, and they are well 
portrayed in these brochures, but I think what you are asking 
is could we develop some more public type communication that 
would demonstrate----
    Senator Alexander. For example, even to give awards for 
designers and buildings that not only improve efficiency, but 
do it in the most aesthetically pleasing way because that will 
speed the acceptance of conservation and efficiency.
    Mr. Winstead. Yes, we will do that. I will continue. We do 
in fact have this week some design awards for our buildings. It 
is a design awards ceremony occurring on Thursday. Some of 
those buildings have incorporated and will be receiving awards.
    We will look to see how we can communicate that more 
aggressively, and therefore provide leadership and 
encouragement of aesthetic solutions to these technologies.
    Senator Alexander. Thank you, Madam Chairman.
    Senator Boxer. Senator Sanders, please?

 OPENING STATEMENT OF HON. BERNARD SANDERS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Sanders. Thank you, Madam Chair. Thank you for 
holding this hearing.
    If we are serious about addressing the crisis in global 
warming, it seems to me that the Federal Government has to be a 
leader in moving us toward energy efficiency and sustainable 
energy. It seems to me that we are moving much, much too 
slowly, but it is reassuring to hear that we are making some 
progress.
    Commissioner, if I could ask you just a few brief 
questions. In Australia now they are talking about phasing out 
incandescent light bulbs and moving to compact florescents. Are 
we making bold changes in lighting in our government buildings?
    Mr. Winstead. Senator, we are. As I mentioned before, 
starting way back in 1990, we were moving from----
    Senator Sanders. What does bold mean?
    Mr. Winstead. We are basically replacing all the old 
fixtures with the new electronic ballast lighting, and looking 
at dropping basically the lighting and reflective ceilings.
    Senator Sanders. I don't have a lot of time.
    So the assumption is that in a few years' time, we will be 
rid of incandescent light bulbs in most government buildings?
    Mr. Winstead. We are working on that strategy.
    Senator Sanders. ``Working on it'' gets me nervous. In a 
few years, will we have accomplished that goal? What is 
``working''?
    Senator Boxer. Senator, with this bill.
    Senator Sanders. We are going to do it.
    Senator Boxer. That is right.
    Senator Sanders. OK.
    Senator Boxer. They support the bill.
    Senator Sanders. You showed a poster----
    Senator Boxer. Senator Sanders, I am giving you an 
additional 2 minutes, really, because you didn't make an 
opening statement, so just be calm and we will get you all the 
time you need.
    Senator Sanders. All right.
    Senator Boxer. Yes.
    Senator Sanders. Solar panels, you had a building over 
there on which you had solar panels. What percentage of the 
electricity for that building is in fact being generated by the 
panels?
    Mr. Winstead. Ten percent, Senator.
    Senator Sanders. Ten percent.
    Mr. Winstead. Ten percent. That, I believe, this is the 
NARA facility and this is essentially the materials that are on 
that roof.
    Senator Sanders. OK.
    Is there a plan now to be installing solar paneling in 
buildings all over the country that we own?
    Mr. Winstead. In a wide variety. You see it here on a 
facility used for storage. We are incorporating it in 
courthouses. We are looking at ports of entry because a lot of 
the ports of entry on the borders are in areas that are very 
remote, where this technology will augment the energy supply.
    Senator Sanders. Will that be standard operating procedure 
for new buildings as well?
    Mr. Winstead. Yes.
    Senator Sanders. OK.
    Mr. Winstead. Under our design guidelines, we do have these 
incorporated to look at in terms of incorporating these 
technologies in the new buildings.
    Senator Sanders. What about solar hot water heating 
systems? Are we installing solar hot water heating systems on 
Federal buildings?
    Mr. Winstead. Senator, we are. We have 12 of them right 
now, and I can get you a list of those.
    Senator Sanders. The 12 of them is not a whole lot, given 
the number of buildings that we have. In other words, the point 
that I am trying to make is that, and I think the Chairwoman 
shares my feeling about this, if we, (a) believe that we are in 
a crisis situation; and (b) if we believe that the Federal 
Government should be leading, and we have got to be very 
aggressive in going forward, and we want our buildings to be 
models not only in terms of saving taxpayers' money and doing 
the right thing for the environment, but showing the rest of 
America what can happen when we are using our brains in terms 
of sustainable energy and energy efficiency.
    So if you telling me that 12 buildings have solar hot water 
systems, that is not all that impressive, frankly. Do you have 
plans to be a little bit more aggressive on that?
    Mr. Winstead. Senator, solar, because of that 10 percent 
example here, solar is not always the most economic system, but 
we will get back to you and the committee a list of all the new 
proposed pipeline buildings in terms of new construction, and a 
list of those that we are in fact proposing to have solar 
elements in it.
    Senator Sanders. One of the problems with ``economic,'' is 
it has to do with how much of that system is being produced and 
purchased. It would seem to me that if the Federal Government 
were involved in purchasing the product, it would probably 
drive prices down.
    Mr. Winstead. You are absolutely correct. Our purchase 
power with these technologies does create economies for others 
to adopt them, and that is part of why I think this committee 
and we need to take the leadership to do this.
    Senator Sanders. The other issue, Madam Chair, that I think 
we should look at, as we talk about new products, we might want 
to encourage American producers to produce those products. To 
the best of my knowledge, and I may be wrong on this, it is 
quite hard to buy compact florescents manufactured in the 
United States. I would hope that in some ways, the Federal 
Government by saying we are going to purchase a huge amount of 
light bulbs or solar paneling systems, that our preference 
would be that they be manufactured in America so that once 
again we can reestablish our position on those technologies and 
create jobs in this country.
    Mr. Winstead. Senator, that is a good point. I think we 
have supplied this to the committee, but we actually have an 
example of our 18 LEED buildings so far, and to your point, in 
this breakpoint, it actually shows of each of these buildings' 
systems, what are generated by energy savings, water, and also 
local materials. We actually evaluate what we are buying in the 
local market, to your point, making sure that our purchase 
power is going as much as we can to buy technologies served 
within that region or in that marketplace. I can get you a copy 
of this that shows the percentage of each of these LEED 
buildings that has local materials purchased and the percent of 
local materials.
    Senator Sanders. OK, at some point I would appreciate the 
opportunity to chat with you. Maybe you could come by the 
office.
    Mr. Winstead. Sure. I would be happy to. I will follow up.
    Senator Sanders. OK. Thank you very much.
    Mr. Winstead. Thank you.
    Senator Sanders. Thank you, Madam Chair.
    Senator Boxer. Senator Sanders, thank you. I just wanted 
you to know that I agree with everything you said. I don't know 
whether you were here at the time, but we are going to get back 
from the good Commissioner a list of the buildings that they 
really need to retrofit. It is going to cost them in some cases 
$10 million to $20 million per building. They are going to get 
us that information, because we are going to have to help them 
get the funding they need to do this.
    Also, they are going to take a look at their procurement 
lists and make sure that they don't have these old technologies 
on the procurement list because the power of the purse, as you 
say, is key.
    I will share with Senator Sanders, I wanted to buy a bulb 
for every member of the committee, the new kind of bulbs, and I 
was so excited and it was going to be a surprise I was going to 
give them. Every one of them was made in China. I was 
distressed about that fact.
    If we do this kind of, and we always use the word 
``Manhattan Project,'' but it is a good image, on our Federal 
buildings here, it will now pay for people to really invest in 
America to do this, I think.
    Senator Klobuchar, then Senator Carper.

OPENING STATEMENT OF HON. AMY KLOBUCHAR, U.S. SENATOR FROM THE 
                       STATE OF MINNESOTA

    Senator Klobuchar. Thank you, Chairman Boxer. Both Senator 
Sanders and I are excited about replacing those bulbs right up 
there. They are kind of bright.
    [Laughter.]
    Senator Klobuchar. Anyway, thank you so much, Commissioner, 
for being with us today, and thank you for your focus on this 
important issue and your understanding that not only will this 
be good for our Country in terms of being more energy 
efficient, but it also leads to the possibility that we will 
actually save money, which I think there always seems to be 
people are trying to make a poll between what is good for the 
environment is going to be bad for the economy. But as you 
pointed out, when we cost this out, we can actually save money.
    I was actually surprised to learn that energy consumption, 
which I didn't know in the government buildings, private 
businesses, homes, accounts for almost two-thirds of U.S. 
emissions of carbon dioxide, and that is why this is so 
critical. When I have gotten around our State, I know that 
people are just yearning to be part of the solution to this. 
Certainly, they can do it in their own towns, but it would be 
very good if the Federal Government leads the way, as has been 
pointed out today.
    My questions are just more coming from a northern State, if 
you could talk a little bit about solar panels and if they 
could be adjusted for more cloudy areas, and if you can get 
that same kind of energy efficiency.
    Mr. Winstead. Senator, obviously the climate issues in 
terms of the amount of daylight and also the temperature is a 
factor, and it does impact. This one, for example, is in 
Massachusetts, and to the Senator's question, only 10 percent 
is generated by those solar panels. If that were in Florida, 
you would get a higher percentage, obviously. So it does have 
an impact.
    We obviously wouldn't invest in this technology if it 
didn't, as Senator Boxer said, have a payback that is rational 
from our perspective in managing these properties. We go 
through an extremely thorough analysis of all our building 
inventory. We do an analysis in terms of when that capital 
investment is going to payback in terms of operating savings. 
We actually have a benchmark of 6 percent return, what we call 
a hurdle rate. All the buildings need to perform to that 6 
percent. If they are not, we do not invest in them, and dispose 
of them. We look at consolidation of Federal agencies.
    So we are actually not only looking for the payback in 
employing these technologies, but where the building is not 
cost-effective for the Federal Government, we are excising or 
disposing of it in negotiated or public sale. Recently, I will 
mention just as an example, we had an old warehouse up in 
Baltimore County that was used by Martin Marietta to build the 
B-52 engines and aircraft. We went to public auction last year, 
with the county's support, which for economic development 
really wanted to see this moved. It was appraised for $28 
million, and we got $38 million for it.
    All that money comes back into the Federal building fund to 
buy new systems for the renovation, some of these solar systems 
and HVAC technology. So we were able to take that $40 million 
and to put it back into our existing inventory. So it helps us, 
again, to advance some of the objectives of this bill.
    Senator Klobuchar. Then you also talked up a New York 
building and how proud we are to have this 100 percent 
renewable energy efficient building, that is using solar and 
wind. Is that right in that building?
    Mr. Winstead. The Binghamton? That is wind.
    Senator Klobuchar. Wind?
    Mr. Winstead. Wind.
    Senator Klobuchar. OK. One of the issues we have had with 
wind, we have a lot of wind in our State, and we have been 
harnessing that with some good standards in place with State 
law. What we have seen is the transmission line issue in terms 
of carrying the across the Country and bringing our wind across 
the Country. I assume that this is a wind turbine that is right 
near the facility? Or how did you get it in?
    Mr. Winstead. It is new. It is in Fenner, NY. I think it is 
new, so it obviously is very efficient and built into the grid 
capacity. So I think we are getting it very cost effectively.
    Senator Klobuchar. Are there other technologies beside wind 
and solar that you are looking at?
    Mr. Winstead. We do have one or two geothermals. We have a 
bunch of daylight-harvesting technologies looking at how we 
employ shelving on the interior and exterior to reflect 
lighting. We are looking at light-reflective colors, ceiling 
surfaces, LEED lighting for fixture. So there are bunch of 
them. I have a list of about 25 technologies beyond the ones we 
have talked about that we look to to try to address both the 
building renovation, as well as making sure it is cost-
effective in terms of investment.
    Senator Klobuchar. All right. Thank you very much.
    Mr. Winstead. Thank you, Senator.
    Senator Boxer. Senator Carper? Welcome.

OPENING STATEMENT OF HON. THOMAS CARPER, U.S. SENATOR FROM THE 
                       STATE OF DELAWARE

    Senator Carper. Madam Chairman, it is good to be here. 
Thanks very, very much.
    Madam Chairman, to you and to my colleague, Senator 
Klobuchar, we don't have many school districts in my State. In 
fact, we only have 19, if you can believe that, but we only 
have three counties. But down in the southwestern part of our 
State, we have a town called Seaford. Seaford is famous because 
it was the place where the first nylon plant was built in the 
country, in the world, actually.
    They have six schools in the Seaford School District, and 
the Seaford School District has decided they want to be able to 
put more money into their classrooms, with smaller class size, 
more focus on early childhood education, more after school 
programs. They decided that one of the ways they would come up 
with the money, aside from raising taxes, was to use less 
energy.
    What they have done is attacked this challenge with a 
vengeance. They worked through the Energy STAR Program. They 
have over the last several years actually air-conditioned all 
of their schools. Even after air-conditioning all the schools, 
they now use less electricity than they used before.
    They have done things like changing all the ballast in 
their lights, the kind of bulbs they use in their lights. They 
have changed out the windows, not just for better insulation, 
but also when the spring sun or the summer sun or the autumn 
sun is on those windows, it is not heating up the schools any 
more. They have boilers that can generate the heat for their 
building either if natural gas is cheaper, they use natural 
gas. If fuel oil is cheaper, they use that. They have done all 
kinds of things.
    One million dollars is not a lot of money, but in the 
Seaford School District, it is a lot of money. What we do in 
Delaware is we hold them out to other school districts as an 
example of what a school district who wants to get behind an 
idea like this can do, and the good that it does for the 
children that are educated in the school.
    What they do in the Seaford School District is they get to 
keep the money that they save. The State doesn't take it back. 
In my State, the State pays for about 75 percent of the cost of 
education, and maybe 15 percent or 20 percent by local school 
taxes. Only 5 percent or 10 percent is by the Feds. But when 
Seaford School District saves money, they keep the money. There 
is a great incentive for them to find the savings.
    Which is a long way to get me to this question. I want to 
ask you to think about how we can incentivize, instead of just 
mandating to agencies that you have to reduce energy 
consumption, which I think we try to do by Executive order and 
we are trying to figure out how we can complement that through 
the law. How do we incentivize them to do this, other than the 
fact that we want to reduce our dependence on foreign oil; we 
want to clean up our air; we want to combat climate change. How 
do we incentivize them?
    I chair a Federal Financial Management Subcommittee. I lead 
that subcommittee along with Senator Coburn. One of the things 
that we focus on is surplus properties. You talked about 
selling one in Baltimore County. We are trying to figure out 
how do we incentivize agencies to sell, hopefully at a good 
price like the example you cited, surplus properties. How do we 
incent them to do that? I think over at the VA, when they sell 
or move a surplus property that they don't need, I think they 
get to keep part of the proceeds. That is an incentive for 
them, and they use that money to help provide service to 
veterans.
    How do we incentivize, aside from laws or aside from 
Executive orders? How do we incentivize agencies to do the 
right thing in terms of energy and conservation?
    Mr. Winstead. Senator, a couple of things. I do know that 
OMB is working with this committee to define those incentives. 
From our perspective at GSA Public Buildings Service, we 
essentially project the rent for a 2-year period, so that all 
of our tenant agencies, be it the Federal courts, judiciary 
system, the third branch, or whether it is the IRS or the new 
FBI field offices we are building, anything we save in terms of 
operating costs reduce that rent cost to them. So they are, in 
fact, incentivized by our actions in taking LEEDs and all these 
technologies we have been talking about.
    It is money that they save for their mission purpose of 
that Agency. It is containing the escalations in that rent. To 
your point about Seaford, you mentioned that those revenues 
came back to the schools to go to education or facility 
purposes. As you know, when we are making these savings as a 
result of this technology, be it lighting or solar or what have 
you, all that money that is saved not paying for energy stays 
in the Federal Building Fund, and we are able therefore to do 
another renovation project. We are therefore able to fill a new 
courthouse.
    So we do have the same incentive. Fundamentally, the 
Federal Building Fund is incentivized by the rents coming in, 
the revenues we are achieving, and so any savings in energy 
actually comes back to the Federal Building Fund and therefore 
helps us to move to other needs, both for existing facilities 
and new facilities.
    Senator Carper. Do you think agencies and agency heads 
around here are thinking about, we have to do this because we 
want to return more money to the Federal Building Fund?
    Mr. Winstead. They are always looking at containing their 
costs. I had with some irony 2 months into the job, I saw the 
Washington Post article that the Chief Justice was talking 
about the rent bill that we provide them. He wanted a 50 
percent relief from the rent bill. We have a lot of pressure 
from all the agencies as a result of the budget constraints 
and, what you all are approving, efforts to contain these 
costs, to contain the rent, the shell rent, the operating 
costs.
    So it is really self-incentivized. They don't want to pay 
anything more than they have to.
    Senator Carper. OK. Madam Chair, my time has expired. Can I 
ask one more quick question, if you don't mind?
    Senator Boxer. Yes. Go ahead. Take another couple of 
minutes.
    Senator Carper. Thank you.
    If you were in our shoes on this side of the table, what 
would you do?
    Mr. Winstead. Senator, again, I think that because of the 
nature, we address some 60 agencies' needs, this legislation 
and our programs that I have mentioned are really targeting new 
energy technology, lighting and renovation schemes, that will 
in fact save energy costs. As I started out, 70 percent of 
consumption of energy goes to the building operations around 
this country.
    So I think that anything we can do under our budget 
constraints, building by building and retrofitting, or new 
buildings where we are incorporating these technologies in 
design options, we are going to push that, communicate that and 
make sure that not only our tenants understand it in terms of a 
good high quality work environment at good cost to the 
taxpayer, but that the technologies we are using we communicate 
more broadly.
    We have very close partnerships with BOMA.
    Senator Carper. Excuse me. What would you do if you were in 
our shoes?
    Mr. Winstead. I would do exactly what you are doing. That 
is, both with this legislation, Executive order; our focus, the 
focus that you are directing me to undertake with our actions 
to promote these technologies, to get energy savings, to 
obviously reduce the issues of energy. I think you are on the 
right track. I think the market, as you know, and you will hear 
that from the other panelists, these technologies often are not 
cost-effective until you get to a certain scale of deployment. 
We are able, fortunately, to drive them more than many people 
can.
    The one thing that was not mentioned is that we have a huge 
portion of our portfolio that is a leased portfolio, leased 
space. What we are incorporating in our prospectuses and lease 
actions clauses that will incentivize new buildings being built 
by a landlord, not an owned building, to incorporate these 
technologies as well. So not only are we managing it with our 
owned inventory, but we are trying to incentivize actions in 
our leased as well.
    Senator Carper. All right. Madam Chair, a thought occurs to 
me in this conversation. You and I, and a lot of our colleagues 
are interested in reducing energy consumption by the vehicles 
that we drive. I always think of three roles that the Federal 
Government can play in that regard. One is basic R&D, whether 
it is in fuel cells or plug-in hybrids, or flex-fuel vehicles, 
battery technology, or that sort of thing. There is a major 
role that in basic R&D technology.
    A second role for the Federal Government is to use its 
purchasing power on the civilian side and on the defense side 
to commercialize these technologies, provide for economies of 
scale.
    The last one is to provide tax credits to incentivize 
people to buy more energy-efficient vehicles.
    We are trying to do some or all of those things right now. 
One of the things in what Mr. Winstead said made me think about 
it. A role that they can help play, GSA, and they can help in 
No. 2, and that is using the Government's purchasing power to 
commercialize promising new technologies. I don't know that we 
have time to get into that today, but can I just ask you, at 
least for the record, if we don't have time to do that today, 
just to come back to us and talk about the role that GSA is 
playing in helping us to commercialize promising new 
technologies?
    Mr. Winstead. I will be happy to.
    Senator Carper. Thank you.
    Thanks, Madam Chair.
    Senator Boxer. Senator, I think that is a very good way to 
go. I guess what I want to say to GSA is, how grateful I am 
that you did do something really different. You joined with us 
and you helped us craft this bill. This means a lot to us 
because you are in a position to really lead the Nation. I hope 
you realize that. Nobody knows where they are going to be when 
certain things happen and certain challenges occur. You are in 
a position at a time where we have to get energy independent. 
We have to save the planet and all the other things. Buildings 
are a very important piece of the puzzle.
    Now, the Commissioner told us before you came that it would 
help him if he was able to enter into longer term contracts for 
renewable energy. Right now, he is limited to 10 years out. 
That is not under our discretion here, but we are going to 
talk. Senator Sanders is on the Energy Committee. We should 
talk to our colleagues and give them that chance to do even 
better.
    Just along that line, and this will be the last question, 
one of the things that Al Gore talked about when he talked 
about the future, and he is very good about looking ahead. By 
the way, I am not a really good futurist. I have enough trouble 
just dealing day to day, but I listen to him. He is talking 
about the electranet. He is talking about that as the 
individual being able to figure out how to get off the grid.
    Coincidentally, that very day I met with an inventor who is 
being backed by venture capitalists in the Silicon Valley, who 
has come up with this idea of creating a generator--and help me 
out with this, Bettina or Eric or whoever, Michael, whoever was 
with me at this meeting--this generator is going to be put in 
your own home, and I guess it functions off solar, but I am not 
exactly sure. It can function off anything, any renewable fuel, 
and you take your home right off the grid. That they are 
piloting this idea.
    So going along with Senator Carper, how you could be a 
laboratory without any risk to anybody, if you would be willing 
to sit down with some of these people, not necessarily this 
individual, but just to see whether there are ways. Imagine if 
we could make our buildings, take them off the grid, or at 
least have one example of a building where we took it off the 
grid. Would you be willing to try out these new technologies, 
assuming that there wasn't a cost to it that was any more than 
what you are currently paying. Would you be willing to work 
with us on those kind of things?
    Mr. Winstead. Senator, we would be happy to. I would be 
happy to meet with anybody that has a new technology. We do 
have a border station in Alexandria Bay that apparently, and we 
can get you more information, is using this kind of technology 
of self-generation. We will provide the committee with that as 
a LEED again.
    Senator Boxer. Would you?
    Mr. Winstead. If it works in these remote areas and is 
cost-effective there, because there is no major grid, there 
could be ways to expand it. So we would be happy to meet with 
whoever contacted you.
    Senator Boxer. That would be excellent. The whole idea, of 
course, is to make these run off renewables. I just think that 
we are so much on the edge here, and I think a lot of us here 
know that with a little bit of enthusiasm, which I think you 
are showing us today, we can actually move out.
    I will just speak on behalf of the full committee, because 
I feel everyone agrees that this is a good thing. I know that 
Larry Craig is in an energy efficiency caucus, even, and he is 
on our bill. So we have broad support for our bill. I know you 
mentioned us going out and looking at some of the green 
buildings, which I would really love to do, to look at a green 
building in this area, bring the committee and the staff with 
us, because we are going to take up a green buildings bill. 
This bill today is looking back to how to retrofit, which are 
serious issues for us. As you said, so serious that sometimes 
you are going to sell a building off because you can't even fix 
it.
    So we will meet with you again, and we will take a tour of 
one of your prize buildings here. We will talk about other ways 
that we can make the Federal Government really on the cutting 
edge. I mean, that is what we should be doing, and that is what 
we used to do a long time ago when these issues were 
bipartisan.
    I get a sense, because of the cooperation we had on this 
bill, that this is an area we have bipartisan support in, and 
that makes me very, very happy. I will introduce you to this 
fellow and have him give you his pitch. Sometimes in these 
inventions, they will say, here, take it, use it, let us know 
how it works. It would be worth having that type of feedback. 
So we will get together soon again.
    I just want to thank you so much for your testimony, and 
most of all for your can-do spirit, because we don't have 
enough of it in the Federal Government today, and when we do 
see it, we appreciate it.
    Mr. Winstead. Thanks, Senator. I really appreciate it. We 
are doing great things and we continue to partner with this 
committee on your legislation. I will look forward. Whenever 
the tour of these facilities is appropriate, we will be happy 
to get that underway.
    Senator Boxer. Yes. We will do that soon. Thank you, 
Commissioner.
    Mr. Winstead. Thank you.
    Senator Boxer. Thank you to the staff.
    Now we will ask our second panel to come forward, Ms. 
Callahan and Ms. Townshend. The first is from the Alliance to 
Save Energy. The second is from the Associated General 
Contractors of America.
    We welcome both of you here. If you could put your 
statements in the record, and see if you can summarize in 5 to 
7 minutes, that would be great. We will put 5 minutes up, and 
we will go over another 2 minutes, because we have votes coming 
not too soon, but in the near future.
    Ms. Callahan, of course, go ahead.

   STATEMENT OF KATERI CALLAHAN, PRESIDENT, ALLIANCE TO SAVE 
                             ENERGY

    Ms. Callahan. I am Kateri Callahan. I serve as the 
president of the Alliance to Save Energy, which is a bipartisan 
and nonprofit coalition of about 120 business leaders, 
government leaders, consumer and environmental leaders. Our 
mission is to promote energy efficiency worldwide to achieve a 
healthier economy, a cleaner environment, and enhanced energy 
security.
    We are celebrating our 30th anniversary this year. We were 
formed in 1977 by then-Senators Chuck Percy and Hubert 
Humphrey. We are pleased that we continue to this day to enjoy 
leadership from the Congress. Our current Chair is Senator Mark 
Pryor, and you mentioned Senator Larry Craig is also one of our 
Vice Chairs, along with Jeff Bingaman, Susan Collins and Byron 
Dorgan.
    I very much appreciate the opportunity to be here today to 
talk to you about your new and exciting bill that you are 
putting forward, and also to explore other opportunities to 
advance energy efficiency in the Federal Government.
    I think just as a start, just a threshold, you may be aware 
of this, but the U.S. Federal Government is the single largest 
energy consumer and energy waster in the world. In 2005, the 
Federal Government represented fully 2 percent of the energy 
used in the United States, and that was at a cost to taxpayers 
of $14.5 billion. Out of that, fully $5 billion went into 
buildings, to heating, cooling, lighting buildings. So it is an 
area ripe for what you are doing here in this Congress.
    I also wanted to mention that as we look at new legislation 
that a lot has been done throughout the years. From 1985 to 
2005, we managed to cut Federal energy consumption by 13 
percent. What that has meant is we have been able to lower the 
taxpayers' bill for energy by 25 percent. So we have had 
dramatic savings, but notwithstanding that, as you have 
identified, there is still much, much more that we have to do.
    So how do we go about that? I want to talk just really 
about three things. Senator Carper, to answer your questions, I 
am going to tell you what I would do if I were sitting behind 
the dais and looking out.
    The first thing is that we have, as mentioned by Senator 
Alexander, a body of targets and goals that are set in place 
already through EPAct, through the new Executive order. These 
requirements are intended to reduce the energy use by the 
Federal Government. We look at that and say, taken together, it 
is a pretty aggressive agenda. It represents a good target. 
However, meeting it is very problematic and is going to require 
your concerted attention and effort.
    The first thing that we think needs to be done is to fully 
implement what is already out there. The way that the Congress 
can help with that is to do exactly what you are doing here 
today. Careful oversight and making sure that folks understand 
that this is a priority for you will help these Federal 
officials understand that it should be a focus and priority 
area for them, and that they are going to be held accountable 
for making the targets that have been set.
    The second important role is something that you mentioned, 
Senator Boxer, and that is to make sure that we have adequate 
funding to do this. To actually improve the Government energy 
use is going to cost billions of dollars. Right now, the 
appropriations are running between $100 million to $300 million 
a year for efficiency improvements in buildings. That is simply 
not enough.
    Another area, besides direct appropriations, is to work 
with the Federal agencies to ensure that we more fully use 
innovative financing tools that are allowing Federal agencies 
to make efficiency improvements with no up-front costs. These 
are done through something called energy savings performance 
contracts and utility energy savings contracts.
    At their heyday, they were delivering about $500 million a 
year in the efficiency upgrades, but the authorities lapsed in 
2003. When that happened, there was a precipitous drop in their 
use by agencies, and in 2005, we saw the level of investment 
only at $175 million. So we need to be able to use those again.
    Senator Boxer. Before you leave that, why did that lapse?
    Ms. Callahan. Because the congressional authority ran out. 
It was authorized for 10 years and the authority ran out in 
2003. There was a temporary reestablishment of the authority 
for a year, and then in 2005 it was reauthorized again.
    Senator Boxer. What committee has jurisdiction over that?
    Ms. Callahan. The Energy Committee, ma'am.
    Senator Boxer. OK. Thank you. I will talk to Senator 
Bingaman and Senator Domenici.
    Ms. Callahan. Yes, I think they are very interested 
actually. They are looking at it. It has been considered even 
looking for a permanent reauthorization, which would help 
tremendously. However, and I will stop here and just improvise 
a little bit, there are other problems with it as well. It is 
not just the authorities lapsing. It is the risk factor, either 
perceived or real, of agencies in using this.
    Right now, people aren't penalized for the energy waste in 
their buildings and for doing nothing, but they are scrutinized 
heavily for using this innovative and a bit difference 
financing tool. So at the risk of making sure that everything 
is done properly and that they are in no trouble, they would 
rather do nothing than move forward on these.
    So again, oversight, working with the agencies, will be 
very important and we would like to work with you all on that.
    Senator Boxer. I will buy you another 2 minutes.
    Ms. Callahan. OK. Thank you.
    Senator Boxer. Because I interrupted you.
    Ms. Callahan. Thank you.
    The final area, and the critical role, is new legislation, 
like you are considering today. The Alliance applauds you and 
the Ranking Member particularly for doing this in a bipartisan 
way and with the Administration. That is what we need is 
everyone working together if we are going to maximize our 
opportunities.
    What we like about the bill is that it expands the scope. 
It identifies new approaches. It makes people within the 
agencies accountable. We think that that is very, very 
important.
    The other element that we very much like is the money that 
is being put out by the Federal Government to encourage other 
levels of government to do the same. We think there are great 
leadership opportunities, as I know you do.
    Perhaps the most important thing about the bill is 
something that Senator Alexander brought up. From our 
perspective, it complements what is already there and adds to 
it. We think that it is very important as you move forward and 
consider other ideas and ways to really beef up and take to the 
next level what you are doing with the Federal Government, we 
need consistency. We cannot turn funding away or attention away 
from those activities that have already delivered us the 13 
percent savings that we have achieved. We need to keep a focus 
on those as we expand and go further.
    The last thing I would say is that Federal energy 
management, as important as it is, is just one of many things 
that have to be done if we are going to tackle the social, the 
economic, and the environmental problems associated with our 
overuse of energy in this country.
    So we think that what you are doing here in making the 
Federal Government a leader is particularly important in making 
them worldwide, but we would like to work with you all on other 
things that can be done in that area to make sure that the 
Federal Government really takes on the leadership mantle of 
turning around the problem that we have with energy and making 
it a solution so that we have a sustainable energy future.
    Thank you for your time.
    [The prepared statement of Ms. Callahan follows:]
    Statement of Kateri Callahan, President, Alliance to Save Energy
                              introduction
    The Alliance to Save Energy is a bipartisan, nonprofit coalition of 
more than 120 business, government, environmental and consumer leaders. 
The Alliance's mission is to promote energy efficiency worldwide to 
achieve a healthier economy, a cleaner environment, and greater energy 
security. The Alliance, founded in 1977 by Senators Charles Percy and 
Hubert Humphrey, currently enjoys the leadership of Senator Mark Pryor 
as Chairman; Duke Energy CEO James E. Rogers as Co-Chairman; and 
Senators Jeff Bingaman, Susan Collins, Larry Craig, and Byron Dorgan 
along with Representatives Ralph Hall, Edward J. Markey, and Zach Wamp 
as its Vice-Chairs. Attached to this testimony are lists of the 
Alliance's Board of Directors and its Associate members.
    The Alliance has promoted effective federal energy management for 
many years. Our Federal Energy Productivity (FEP) Task Force will soon 
be joined by a new Board committee dedicated to fostering dramatic 
energy savings throughout the federal government. Thus the Alliance is 
pleased to testify at a hearing on energy use in government buildings.
                      federal energy use and waste
    The United States Federal Government is the single largest 
consumer, and the single largest waster, of energy in the world. In 
2005 the federal government overall used 1.6 quadrillion Btu of 
``primary'' energy (including the fuel used to make the electricity it 
consumed), or 1.6 percent of total energy use in the United States. 
Taxpayers in this country paid $14.5 billion for that energy.
    Almost half of that energy, and more than half of the cost, was for 
vehicles and equipment, primarily for military planes, ships, and land 
vehicles. The rest, 0.9 quadrillion Btu at a cost of $5.6 billion, was 
for heating, cooling, and powering more than 500,000 federal buildings 
around the country. Roughly 5 percent of the building energy use is at 
General Services Administration buildings, of particular interest to 
this committee.
    Repeated efforts over the last two decades have resulted in 
dramatic savings, but large cost-effective savings remain available. 
Overall federal primary energy use decreased by 13 percent from 1985 to 
2005, and the federal energy bill decreased by 25 percent in real 
terms, an accomplishment made even more impressive and important given 
the 27 percent jump in fuel prices in the United States in 2005. 
Federal ``standard'' buildings reduced their primary energy intensity 
(Btu per square foot of building space) by about 13 percent, while 
``site'' energy (measured at the point of use, excluding electricity 
system losses) declined by 30 percent (``Standard'' buildings are those 
not exempted due to industrial uses or national security needs). 
Congress and the president have set even more aggressive targets for 
future savings that could yield well over $1 billion in energy cost 
savings each year from buildings alone.
    It is important to place this savings potential in context. The 
federal government is the largest energy consumer, and it could play a 
unique role as a market transformer through the early adoption of new 
efficient technologies and practices. Unfortunately, addressing federal 
energy use is but one of many congressional actions that are necessary 
to solve the many critical energy issues facing our country. The 
federal government accounts for just 2 percent of U.S. oil use and a 
similar portion of greenhouse gas emissions. This is a small percentage 
of the overall contribution of the United States to energy consumption 
and greenhouse gas emissions, but is significant when you consider that 
the U.S. accounts for one quarter of the total energy used and one 
quarter of the total loadings of CO<INF>2</INF> emitted by the world. A 
number of federal policies and funding decisions, such as appliance 
efficiency standards, tax incentives, and energy-efficiency research 
and development must be undertaken--in addition to ending federal 
energy waste--if we are to ensure Americans a sustainable energy 
future.
    Notwithstanding the need to do more, the federal government's own 
potential is significant, the potential taxpayer savings are worth 
pursuing, and it is valuable to establish the government as a 
successful role model for state and local governments as well as the 
private sector. There is extraordinary interest in Congress right now 
in addressing federal energy use, from greening the Capitol buildings 
to reducing the need for fuel supply convoys in Iraq. I will talk first 
about implementing, overseeing, and funding the policies that are 
already in place, and then about new initiatives to make the government 
even more efficient.
            meeting current federal requirements and targets
    There already are a number of targets, standards, and requirements 
intended to reduce energy use by federal agencies. Together they 
already set a reasonably ambitious agenda for reducing energy use, at 
least in standard federal buildings, but achieving that agenda remains 
problematic. Among the more important of these are:
    <bullet> Agencies are required to install in federal buildings all 
energy and water conservation measures with payback periods of less 
than 10 years by 2005 (Energy Policy Act of 1992, Sec. 152). This has 
not been fully accomplished.
    <bullet> All new federal buildings must be designed to achieve 
energy use at least 30 percent below the national model building energy 
codes (EPAct 2005, Sec. 109), if such improvements are cost-effective. 
The Department of Energy (DOE) just issued interim final rules in 
December 2006.
    <bullet> Agencies must purchase efficient Energy Star or FEMP-
designated products unless not available or not cost-effective (EPAct 
2005, Sec. 104). DOE has not yet issued final regulations to implement 
this provision.
    <bullet> All federal buildings should be metered for energy use by 
2012, using advanced meters that record electricity use by time when 
practicable (EPAct 2005, Sec. 103). DOE issued guidelines in 2006, but 
limited the metering requirements to electricity use, excluding natural 
gas, steam, and hot or chilled water. Most agencies have prepared 
implementation plans.
    <bullet> Each agency is to reduce the energy use intensity of its 
buildings by 3 percent per annum, or 30 percent by 2015 (Executive 
Order 13423). Agencies mostly met earlier targets culminating in a 30 
percent reduction between 1985 and 2005; however, total energy use 
reductions have been smaller as energy-intensive facilities are 
excluded from these targets and as the savings targets are interpreted 
as applying to site energy and thus exclude losses from the growing use 
of electricity.
    <bullet> Each agency is to reduce the water use intensity of its 
buildings by 2 percent per year or 16 percent by 2015 (EO 13423). This 
is the first water efficiency quantitative target for federal 
buildings.
    <bullet> Each agency is to reduce the petroleum-based fuel use by 
its vehicle fleet by 2 percent per year through 2015 (EO 13423).
    The most important issue for reducing federal energy use is to 
implement fully the policies that are already in place, like those 
listed above, for federal building standards, procurement requirements, 
savings targets, cost-effectiveness guidelines, and others. Energy use 
and decision-making are dispersed among many people at dozens of 
federal agencies. Agency leaders, of course, have many mission 
responsibilities, financial constraints, legal requirements, 
stakeholder demands, and impending crises that compete for attention. 
Energy efficiency must be adopted as a primary goal and embodied in 
action throughout the government if we are to meet the targets already 
established.
    For example, while procurement of energy-efficient products has 
been required since a 1991 Executive Order and by law in EPAct 1992, 
that requirement has never been fully implemented in the Byzantine 
process of federal procurement. Product specifications in competitive 
solicitations and negotiations for GSA schedules often do not include 
the efficiency requirements. GSA product schedules still include 
inefficient and outdated equipment, including inefficient air 
conditioners, refrigerators, lighting, and other products.
    The requirement in the new Executive Order 13423 that each agency 
appoint a senior civilian officer to be in charge of implementing the 
Order may help focus attention on energy efficiency. However, 
government officials may be held responsible for an energy-efficiency 
project gone awry, but no one is ever held responsible for wasted 
energy or for inaction; the amount of project savings may be debated, 
but no one ever measures the energy not saved by failing to make new 
buildings ``green'' or replace old equipment with the best new 
technologies.
    We believe Congress's first duty and most important role in 
improving federal energy management is effective and sustained 
oversight. Through requiring regular reports as called for in the 
legislation discussed below, questioning agency heads at hearings, 
sending letters to agencies in committee jurisdictions, and/or 
initiating Government Accountability Office studies, Congress can focus 
the attention of key officials at all agencies on energy use, and 
demand accountability for meeting energy savings and cost-effectiveness 
targets.
             funding for federal energy-efficiency measures
    Energy-efficiency measures save taxpayers money in lower federal 
energy bills, but usually require an up-front cost. The government 
should look at total life-cycle cost, i.e., equipment/product purchase 
price plus estimated costs of energy use over the life of the product, 
not just first cost, when making decisions on new buildings, retrofits, 
equipment and vehicle purchases, weapon design, and more. This life-
cycle-cost perspective is used for some large capital and military 
systems procurements, but not all. And agencies trying to use this 
approach face hard limits on the availability of appropriated funds to 
pay the up-front costs for energy efficiency, and many competing 
priorities.
    Billions of dollars of investment will be needed to meet the 
current energy targets and reap the associated energy savings. However, 
in recent years annual appropriations for energy efficiency, water 
conservation, and renewable energy projects in existing federal 
buildings have ranged from only about $100 million to $300 million. 
Funding for energy efficiency through appropriations must be increased. 
If we do not provide more funding for energy-efficiency measures, not 
only will we risk not meeting the energy targets, but also agencies 
will spend even more money on energy bills. We must invest more to save 
more.
    Increased funding also is needed for DOE's Federal Energy 
Management Program (FEMP), the primary expert resource and coordinator 
for energy managers throughout the federal agencies, and the office 
responsible for rules, guidelines, and reports to implement the many 
legal mandates. FEMP funding has been cut for years, despite increasing 
responsibilities, and its technical resource base of expert contractors 
has been greatly curtailed. More funding and more management attention 
are needed to restore this vital program.
    But if we focus only on increasing appropriations, while we wait we 
will be letting money escape out the windows (and the poorly insulated 
walls). That's why Congress has allowed private, third-party financing 
so agencies can upgrade buildings with no up-front cost to the 
government. Energy Service Companies (ESCOs) finance and help implement 
energy-saving projects through Energy Savings Performance Contracts 
(ESPCs). The contractor is paid out of the resulting stream of energy 
bill savings. By law, the savings must be at least as great as the 
contractor payments--if the savings are not realized, the contractor 
does not get paid. Many electric and gas utilities also offer financing 
for energy-efficiency projects through Utility Energy Service Contracts 
(UESCs), as well as offering rebates and technical assistance to 
federal agencies as part of their demand-side management (DSM) 
programs. Similar to ESPCs, utility investments under UESCs are repaid 
from the utility bill savings due to the projects.
    ESPCs and UESCs used to provide more than $500 million per year for 
energy-efficiency investments in federal buildings. But in September 
2003 authority to enter into new ESPCs lapsed, and despite being re-
authorized by Congress in 2004 and 2005, the use of these innovative 
and effective financing tools has not recovered to these levels. In 
fiscal year 2005 ESPCs provided $97 million, and UESCs $76 million.
    There are a number of barriers that have prevented ESPCs and UESCs 
from reaching their full potential. Ultimately, successful use of such 
instruments now requires a champion--a committed official who is 
willing to ``stick his neck out''--to overcome bureaucratic 
bottlenecks; lack of support; and the threat of audits and/or other 
scrutiny. If the projects fall short of goals at all, they are 
criticized. In contrast, appropriated projects receive comparatively 
little oversight. And, as I said before, there is no systematic process 
of oversight for facilities in which the improvements are never made 
and that are allowed to simply go on wasting energy. In short, 
government energy managers are neither financially nor professionally 
rewarded for energy savings, nor is there much risk in failing to seize 
energy-saving opportunities. Proper oversight of ESPC and UESC 
contracts is needed, but there must also be recognition of the major 
costs of inaction, with a focus on maximizing savings rather than on 
requiring perfection in all activities.
                 new federal energy savings initiatives
    Clearly, the greatest need right now is oversight and funding of 
existing federal energy management policies and programs, many of which 
have been initiated within the last 2 years and not yet fully 
implemented. At the same time, new legislation to expand the scope of 
federal energy management and to make the federal government a true 
example of leadership in energy efficiency would certainly help to stop 
energy waste and to set an example that will encourage savings by other 
levels of government and the private sector. In addition, some 
clarification of existing policies could be helpful. It is important 
that any new initiatives not reduce attention and funding for existing 
activities, but complement these activities. And, of course, in order 
to be effective, Congress must also carefully oversee implementation of 
any new bills it may enact.
    The Public Buildings Cost Reduction Act of 2007 would be an 
excellent start and would meet the criteria outlined above, i.e., 
expand the scope of the current policies; establish the federal 
government as a successful model for others to emulate, and complement 
rather than compete with existing funding and activities. The Alliance 
to Save Energy Board, Associates and staff applaud Senators Boxer and 
Inhofe for their bipartisan work to design a meaningful bill that could 
expedite and expand energy savings by the federal and local 
governments.
    The bill proposes to ``front-load'' energy savings (i.e., require 
most of the savings to occur in the first 5 years) from the 8-year 
targets established in the new executive order for the small but 
important segment of federal buildings managed by the GSA. It 
facilitates the attainment of the proposed goals by identifying 
approaches to achieving the necessary savings, including a manager for 
each facility, an overall plan, and lighting standards and replacement 
program. The bill also would authorize the Environmental Protection 
Agency to implement a $120 million grants program to assist local 
governments in achieving energy savings in their own buildings.
    The Alliance believes that additional measures would greatly 
enhance the potential of wringing out energy waste by the government. 
For example, almost all of the current federal requirements and 
programs address energy use in federally owned buildings, but most 
exclude ``energy intensive'' facilities that house industrial 
processes, as well as other ``exempt'' facilities, often for national 
security reasons. This focus neglects more than half of all energy use 
by the federal government, mostly in transportation and mobile 
equipment. Also overlooked is the energy use and potential savings by 
federal contractors, many of whom perform ``outsourced'' functions that 
would alternatively be the direct responsibility of a federal agency. 
Among the potential ways (most of which likely are not in the 
jurisdiction of the Committee) for capturing these savings are:
    <bullet> Establishment of a government-wide energy savings target 
or a savings target for all vehicles and equipment (``mobility'') 
energy. In addition to the target for federal buildings, the latest 
Executive Order 13423 includes energy savings targets for fleet 
vehicles. However, these fleets are responsible for less than ten 
percent of federal oil consumption. In addition, the executive order 
rescinded the only target that directly addressed greenhouse gas (GHG) 
reductions for the federal sector: Executive Order 13123 previously 
called for a 30 percent GHG reduction from federal buildings, from 1990 
to 2010. If Congress chooses to reinstate a similar performance target 
for federal agencies, it should apply to energy-related GHG emissions 
from all federal energy use, including buildings, vehicles, and 
equipment.
    <bullet> Imposition of energy saving requirements for buildings 
leased by the federal government. The current building standards and 
energy-saving targets apply only to government-owned buildings. 
However, the government also leases a large number of buildings, many 
of which are built specifically for use by federal agencies based on 
long-term lease commitments. One way or another, the government pays 
for the energy used in these buildings, and it should demand that they 
be energy-efficient. Other buildings, such as privatized military 
housing, also are built for the government and often with government 
assistance, and should be required to be energy-efficient as well.
    <bullet> Imposition of smart growth or locational efficiency 
requirements. In addition to the impact of building design on the 
actual energy use, the location of federal buildings can have a 
dramatic impact on the energy use of employees in commuting and other 
driving. The impact is often multiplied as federal buildings often 
attract additional residential and commercial development and 
infrastructure. Moving federal facilities to far suburbs or other areas 
outside of cities encourages sprawl, more driving, and greater oil use. 
A required transportation energy impact assessment could influence 
decisions on where to locate major new or expanded federal facilities.
    <bullet> Directive to encourage federal contractors to improve 
their own energy efficiency. Some industry leaders, including Wal-Mart, 
are not only reducing their own energy use dramatically but also 
requiring their suppliers to improve efficiency, both to lower costs 
and reduce environmental impacts. Federal agencies could encourage and 
assist their large contractor base to reduce their own energy use 
thorough procurement preferences or requirements.
    <bullet> Application of standards and savings targets to Congress. 
Congress could take an important symbolic step by applying all the 
agency energy savings targets and requirements to its own buildings, 
vehicle use, and procurement--making the Capitol complex a model for 
energy efficiency.
    Successful federal energy management also can further vital federal 
goals by influencing others to use energy wisely. The federal 
government could:
    <bullet> Challenge state and local governments and major businesses 
to match the federal commitment to energy efficiency. Many federal 
programs, including ESPCs and procurement requirements, have been 
models for other levels of government. The federal government should 
challenge other major energy users--both public and private--to commit 
to aggressive energy savings goals and policies at least comparable to 
the federal ones.
    <bullet> Support state and utility energy-efficiency and demand-
management programs. Many federal facilities have taken advantage of 
state and utility energy-efficiency programs, and the federal market 
has been essential to building the important infrastructure of energy 
service companies and other energy service providers. Utility DSM 
programs have been among the most effective public tools to reduce 
energy use, and all agencies and agents representing the federal 
government should strongly support cost-effective utility DSM programs 
and associated surcharges to pay for them.
                               conclusion
    While federal energy management is only a piece of the solution to 
the economic, environmental, and security challenges from energy use in 
this country, the federal government is the single largest energy user 
and could be the most influential model in the Nation and for that 
matter, in the world, for using advanced energy-efficient technologies 
and practices. Congress has an important role to play. First, sustained 
congressional oversight is needed to focus agencies' top management 
attention on maximizing energy savings. Second, sufficient funding is 
needed to pay for the necessary initial costs to achieve long-term 
savings, along with continued support for alternative financing 
mechanisms. Third, new legislation could expand the scope and savings 
of federal energy management activities. The Public Buildings Cost 
Reduction Act of 2007 is an important first step. These actions will 
save taxpayer dollars and help save the planet at the same time.
                                 ______
                                 
Responses by Kateri Callahan to Additional Questions from Senator Boxer
    Question 1. During the hearing, I asked GSA about the issue you 
raised in your testimony regarding GSA procurement schedules. Would you 
provide the Committee with a few examples of inefficient and outdated 
equipment which still appears on GSA schedules despite legislative 
mandates that such equipment be eliminated?
    Response. Examples of non-compliant products that still appear on 
the GSA Advantage include incandescent exit signs (e.g., B-674041); 
refrigerators (e.g., CS22AFXKQ); and air conditioners (e.g., 2291615).

    Question 2.  You suggest that the federal government require that 
owners of the buildings which the government leases share in the cost 
of energy efficiency. Would you elaborate on that for the Committee and 
describe how such a system would work?
    Response. New or renewed federal leases in existing buildings 
should be required to give preference to buildings that meet the EPA 
Energy Star rating requirement (efficiency in the top 25th percentile). 
If leased space is not available in such buildings, then the lease 
agreement in a non-Energy Star building should provide for installation 
of all lighting, equipment, and building energy-efficiency upgrades 
that pay for themselves through energy cost savings within the term of 
the lease.

    Question 3. You testified that roughly five percent of the federal 
government's energy use is at GSA buildings. That statistic suggests 
other agencies, not GSA, are the big energy users. The Alliance has 
worked with many federal agencies. Which has the farthest to go in 
terms of energy efficiency?
    Response. The Department of Defense (DOD) is by far the largest 
energy user in the federal government (see Figure 1).


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    And while there are many ways to measure agency progress in 
improving energy efficiency, the most often used measure is energy use 
per square foot (i.e., building energy intensity). As shown in Figure 8 
below, out of a total of 17 individual agencies, DOD is average in 
terms of progress toward meeting the 2005 intensity reduction 
requirement established in Executive Order 13123 (i.e., 30 percent 
below 1985 levels). Given that DOD represents nearly three-fourths of 
government primary energy consumption in 2005, it is not surprising 
that the federal government also fell short of its 2005 target.
    As the chart also indicates, at least 9 cabinet level agencies did 
not meet the 2005 requirements and three of them--the State Department, 
the Department of the Interior, and Housing and Urban Development--had 
not even achieved their 1995 requirements by 2005. In fact, the State 
Department's energy intensity actually increased during this time 
period.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Question 4. You talked about making the Capitol complex a model of 
energy efficiency, a goal I strongly support. Many of the Alliance 
members have worked with federal agencies and with the Architect of the 
Capitol. What recommendations do you have for improving energy 
efficiency practices at the AOC? Are there lessons to be learned from 
other agencies?
    Response. The AOC should participate in the FEMP Interagency Task 
Force, led by DOE FEMP, which meets once every two months to learn more 
about ways to improve federal energy management.
    In addition, the House Chief Administrative Officer (CAO) Dan 
Beard, has developed a preliminary report entitled ``Green the Capitol 
Initiative'' that was submitted to House Speaker Pelosi on April 19, 
2007. This report details five areas to improve energy efficiency in 
Capitol complex operations and notes that the Architect of the Capitol 
has identified over 100 opportunities for improving the physical 
buildings and operations in analysis required by the Energy Policy Act 
of 2005 (P.L. 109-58). These areas cover interior lighting, office 
electronics, data center and computer servers, heating, ventilating and 
air conditioning, and the Capitol power plant. The Alliance to Save 
Energy encourages the Architect of the Capitol to review and implement 
the recommendations that will be made available in the final report, 
which should be published in the coming weeks.

    Senator Boxer. Thank you so much, Ms. Callahan.
    Ms. Townshend, welcome.

  STATEMENT OF MELANIE TOWNSHEND, PROJECT EXECUTIVE, GILBANE 
     BUILDING COMPANY, ON BEHALF OF THE ASSOCIATED GENERAL 
                     CONTRACTORS OF AMERICA

    Ms. Townshend. Thank you, Madam Chair, and members and 
staff for conducting the hearing and inviting me to speak on 
behalf of the Associated General Contractors of America, 
commonly known as the AGC, on your proposed legislative 
solutions to make government buildings more efficient and 
reduce their operational costs through the use of innovative 
technologies and practices.
    I am Melanie Townshend. I am a LEED-accredited project 
executive at Gilbane Building Company, and I serve as our 
company's nationwide sustainable practices coordinator. We are 
one of the Nation's oldest building firms. We are an active 
member of the Associated General Contractors, and we consider 
ourselves a leader in implementing sustainable design and 
construction practices today. Our knowledge base has been 
gained through management of over 45 successful green building 
projects across the Country.
    Additionally, we are a top builder and construction manager 
for the Federal Government, and our portfolio includes both the 
National World War II Memorial and the Department of Justice 
modernization, both of which I was pleased to be personally 
involved in.
    The Associated General Contractors of America is the oldest 
and largest of the national trade associations in the 
construction industry. We were founded at the request of 
President Woodrow Wilson in 1918 and we now represent over 
32,000 firms, 7,000 of the Nation's leading general 
contractors, 12,000 specialty firms, and more than 13,000 
suppliers, and of course these are all major employers and so 
represent a huge number of stakeholders in the environment we 
live in.
    AGC members are engaged in the construction and renovation 
of commercial and public facilities. We prepare the sites and 
the infrastructure for residential and commercial development.
    Madam Chair, our members embrace green construction. We 
recognize green construction is not a temporary phenomenon or 
whim. It is here to stay. Most of our contractors are 
proactively educating themselves on good green construction 
practices. The AGC is currently preparing a contractors guide 
to green building construction. This will complement several 
existing resources on the issue. The manual will 
comprehensively address green construction subjects, standards, 
rating systems, risk management issues, subcontracting 
procurement, and building operations, a very comprehensive body 
of work.
    We stand ready to facilitate and support green 
construction, with particular respect to the construction of 
Federal facilities. We simply urge that you set clear and 
consistent standards for the design and construction of those 
projects.
    We do not as an organization favor any one rating system 
over another, but rating systems provide the common language to 
measure the achievement in the design and construction of a 
sustainable building.
    We currently doubt that the benefit of any single 
definition of green construction for any and all purposes would 
work. It is important that rating systems allow for variations 
in regional, local, and site-specific conditions, as well as 
the nuances of different building types. For example, many 
hospital projects incorporate the Green Guide for Health Care. 
Many military projects incorporate SPiRiT. Many private sector 
projects and public sector projects have been built under the 
U.S. Green Building Council LEED rating system.
    Private sector competition can and should be used to 
encourage the innovative technologies and common sense 
solutions to these environmental problems, and in fact that 
evolution has been very strong in our marketplace over the last 
few years.
    I have attached to the written testimony summaries of two 
major green rating systems, Green Globes and the LEED Green 
Building Rating System. Based on our experience, Green Globes 
may be more suitable for mainstream commercial buildings. LEED 
may be more appropriate for high performance or top tier 
buildings. But again, we don't come here to endorse any one 
rating system, but simply the importance of setting the 
criteria when setting forth to do a project.
    You specifically requested our comments on the bill for the 
Public Buildings Cost Reduction Act of 2007. The bill does not 
raise any serious concerns. We would note the language included 
in section 2(b) of the legislative document with respect to the 
plan for energy efficiency at GSA facilities. Specifically, 
that section 2(b), 2(e) requires GSA to recommend language for 
uniform standards for use by Federal agencies in implementing 
cost-effective technology and practices.
    We do have some concern that this language might lead the 
GSA to favor one rating system over another. We support 
uniformity and the economies of scale that it brings, but we do 
suggest that GSA build language around the common elements of 
several rating systems currently in place in the marketplace.
    While this issue may be outside the precise jurisdiction of 
the committee, we also encourage Congress to enact legislation 
to allow tax exempt financing for green construction projects. 
Green bonds make it easier for construction project owners to 
offset the costs of site remediation, sustainable design 
features, and environmentally friendly technologies or 
products.
    In addition, the AGC supports legislation currently pending 
in the U.S. House, H.R. 539, the Buildings for the 21st Century 
Act, which would extend the commercial building tax deduction 
originally enacted as part of the Energy Policy Act of 2005, 
through to 2013, and increased it from $1.80 to $2.25 per 
square foot.
    In addition to building green buildings for our owners to 
help them achieve their larger societal environmental 
sustainability goals, we understand that our own day-to-day 
construction activities impact the environment. AGC and its 
members are striving to comply with all of the environmental 
laws, regulations and permitting requirements to minimize our 
environmental impact of construction on a daily basis.
    Green construction encourages contractors to discuss and 
put into practices the activities that will minimize the impact 
of their operations on the environment. Some examples are site 
layout to minimize site disturbance, control of erosion and 
runoff, minimizing the use of fossil fuel and emissions, using 
conservation as well as alternative fuels, reducing waste from 
construction through recycling and reuse, and working to 
improve indoor air quality during construction by low-emitting 
material use.
    The AGC is also leading by example. We recently opened our 
headquarters at 2300 Wilson Boulevard in Arlington, VA, which 
was designed to the LEED Silver level of certification. The 
environmentally sensitive systems in that facility will save 
the occupants about $75,000 a year in energy costs, and about 
$5,000 a year in water use.
    Senator Boxer. Could you sum up at this point please?
    Ms. Townshend. Yes, ma'am.
    So we appreciate the opportunity to participate. We want 
you to know that we stand ready to facilitate and support green 
construction, and we encourage you in the direction that you 
are already moving.
    [The prepared statement of Ms. Townshend follows:]
Statement of Melanie Townshend, Gilbane Building Company, on Behalf of 
             the Associated General Contractors of America
    Thank you, Madam Chair and Ranking Member Inhofe, for conducting 
today's hearing and for inviting me to speak on behalf of the 
Associated General Contractors of America (AGC) on legislative 
solutions intended to make government buildings more efficient and to 
reduce their operational costs through the use of innovative 
technologies and practices.
    My name is Melanie Townshend. I am a LEED Accredited Project 
Executive at Gilbane Building Company and am our company's Nationwide 
Sustainable Practices Coordinator. Gilbane is one of the Nation's 
oldest building firms and an active member of the Associated General 
Contractors. Gilbane is also among the leading firms implementing 
sustainable design and construction practices and strategies. Our 
extensive knowledge base has been acquired through management of over 
45 successful Green Building related projects. Additionally, Gilbane is 
a top builder and Construction Manager for the federal government, with 
a portfolio that includes the National World War II Memorial and the 
Department of Justice Modernization, both of which 1 was personally 
involved.
    The Associated General Contractors of America (AGC) is the oldest 
and largest of the national trade associations in the construction 
industry. Founded at the request of President Woodrow Wilson in 1918, 
AGC now represents more than 32,000 firms, including 7,000 of the 
Nation's leading general contractors, 12,000 specialty contractors, and 
more than 13,000 materials suppliers and service providers.
    AGC members engage in the construction of commercial buildings and 
public works facilities, and they prepare the sites and install the 
infrastructure necessary for residential and commercial development.
    Madam Chair, AGC and its members are embracing green construction. 
We recognize that green construction is not a temporary phenomenon; it 
is here to stay. Accordlingly, many contractors are proactively 
educating themselves on green construction practices. To assist in this 
effort, AGC is currently preparing an ``AGC Contractor's Guide to Green 
Building Construction'' to complement several existing resources on the 
issue. The manual will comprehensively address green construction 
subjects, describing the various green building standards and rating 
systems, as well as the risk management, subcontracting, procurement, 
and operational issues associated with green construction.
    AGC stands ready to facilitate and support green construction. With 
respect to the construction of federal facilities, AGC would simply 
urge the government to set clear and consistent standard& AGC does not 
favor any one rating system over any other.
    Indeed, AGC doubts the benefit of a single definition of green 
construction for any and all purposes, and would note, for example, 
that all ratings systems should allow for variations in regional, 
local, and site-specific conditions and the nuances of different 
building types. For example hospital projects incorporate the Green 
Guide for health Care as a criteria and rating mechanism, and many 
military construction projects incorporate SPiRiT, another Green 
Building rating tool. Furthermore, private sector competition should be 
used to encourage innovative technologies and common-sense solutions to 
environmental problems.
    I have attached to my written testimony a one-page summary of two 
major green construction rating systems: Green Globes and LEED Green 
Building Rating System. Based on AGC members' experience, Green Globes 
may be more suitable for mainstream construction and LEED may be more 
appropriate for high performance or ``top tier'' buildings. But again, 
AGC does not endorse one system over another.
    Madam Chair, you specifically requested AGC's comments on S. ----, 
the Public Buildings Cost Reduction An of 2007--Overall, the bill does 
not raise serious concerns. AGC would, however, note the language 
included in Section 2(b) of the legislation with respect to the plan 
for energy efficiency at General Services Administration (GSA) 
facilities. Specifically, the language contained in Section 2(b)(2)(E) 
requires GSA to recommend ``language for uniform standards for use by 
Federal agencies in implementing cost-effective technology and 
practices.'' AGC has some concerns that this language would lead GSA to 
favor one rating system over another. AGC supports uniformity, but 
would suggest that GSA build its language around the common elements of 
the several rating systems currently in place.
    While this issue may be outside the jurisdiction of this Committee, 
AGC also encourages Congress to enact legislation to allow tax-exempt 
financing for green construction projects. Green bonds make it easier 
for construction project owners to offset the coast of site 
remediation, sustainable design features, and environmentally-friendly 
technologies or products. In addition, ACC supports legislation pending 
in the U.S. House of Representatives, it 539, the Buildings for the 
2.B' Century Ace, which would extend the Commercial Building Tax 
Deduction originally enacted as pan of the Energy Policy Act of 2005 
until 2013 and areas from $1.80 S2.25 per square foot. In addition to 
building green facilities for our owners to achieve larger societal 
environmental sustainability goals, AGC understands that construction 
operations also impact the environment. AGC and its members strive to 
comply with all applicable environmental laws, regulations, and permit 
requirements, and to minimize the environmental impact of construction 
operations on a daily basis.
    Green construction further encourages contractors to discuss and 
put practices into place to minimize the impact of their operations on 
the environment. Examples include site layout to minimize site 
disturbance, erosion, and run off during construction; minimizing the 
use of fossil fuel and emissions through conservation and alternate 
fuels; reduced waste through material recycling and reuse; and improved 
indoor air quality during construction by using low-emitting materials.
    AGC is also leading by example--We recently opened our new 
headquarters, located at 2300 Wilson Boulevard in Arlington, Virginia, 
which was designed to achieve a LEED Silver level of certification. 
Environmentally-sensitive systems in our new facility will save 
occupants mound $75,000 a year in energy costs and $5,000 a year in 
water use.
    AGC again appreciates the opportunity to participate in today's 
hearing. AGC stands ready to facilitate and support green construction, 
and encourages the Committee to further promote its use in the public 
and private sectors. We look forward to working with you on this and 
other construction issues.
    Thank you.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
      Responses by Melanie Townshend to Additional Questions from 
                             Senator Boxer
    Question 1.  In your statement you urge ``clear and consistent'' 
standards to facilitate green construction. You also state that the 
Association of General Contractors does not favor one rating system 
over another. How can we reconcile these positions? Which of the two 
major ratings systems exemplifies a flexible system that maintains 
clear standards?
    Response. As long as one of the major rating systems is specified 
for each individual project, the design and construction team members 
will have clear and consistent standards to follow in executing the 
project. The major ratings systems in use today are US Green Building 
Council LEED, SPIRIT, Green Globes, and Green Guide for Healthcare 
Projects. All of these systems have experienced evolution in the past 
few years and are expected to continue their development. LEED has 
evolved in such a way as to recognize how different types of buildings 
can be made sustainable, and has included a broad scope of industry 
training along with the development, so I would say that this is the 
most flexible of the current major systems.

    Question 2. You worked both on the construction of the World War II 
memorial and in the retrofit of the Main Justice Department building. 
At the Justice Building, what kinds of energy efficient technologies 
did you install, and what were the payback times for those 
technologies?
    Response. On the Main Justice Project, direct digital controls for 
the heating, ventilating and air conditioning system, as well as 
energy-efficient lighting fixtures, were installed. Many of the 
existing building elements were retained and the retrofit adhered to 
historic preservation requirements, so this project scope did not 
include technology upgrades which might have been possible in a more 
complete replacement project. We are not privy to the operating costs 
of the facility but our general understanding is that the 
implementation of these technologies would typically results in payback 
in a period of about 2 years. Installation at the Main Justice Project 
was phased over a 7-year period, so the full effects would not have 
been realized until the end of the entire project.

    Senator Boxer. I thank both of you for very constructive 
comments and advice. Some of these things that you talk about 
are so crucial, and I wish that, frankly, the jurisdiction of 
this committee were a little broader than it is. We can only 
deal with the government buildings and that is what we are 
doing here today. But we will talk to our colleagues, because 
you both have come out with some terrific ideas in terms of how 
to really improve energy efficiency in general.
    I do appreciate the private sector's contribution because 
frankly a lot of the work we do is done by the private sector. 
So we want to make sure you are with us and you get the 
importance of it, and clearly you do.
    Senator Carper.
    Senator Carper. Thanks, Madam Chair.
    Again to both of you, thank you for joining us today and 
for your testimony and responding to our questions.
    I really have three questions I would like for each of you 
to respond to. The first would be to just ask you to react to 
the testimony of Commissioner Winstead. Was there anything he 
said that you would like to go back and just sort of underline 
or emphasize, that you thought was especially poignant, 
appropriate, timely; that we should really put an exclamation 
point behind it? That is my first question.
    My second question is, when you look around the world to 
folks in other countries who share our concerns about reducing 
the amount of energy we are using, clean air, clean energy, the 
folks who share those views, what are some lessons that maybe 
we should look beyond our borders to take advantage of?
    The third one is the same question I asked Commissioner 
Winstead. Ms. Callahan, I think you answered it in part, but I 
would ask you to answer it again. If you were in our shoes, 
what would you be doing?
    So if you could take them one at a time, I would appreciate 
it. Just start off by looking back at Commissioner Winstead's 
testimony.
    Ms. Callahan. I think for the Commissioner, a couple of 
things ring clear. He told you that they invite and encourage 
the kind of oversight that you are doing. Somebody has to step 
up and say, we are going to hold people accountable, and this 
has to be a central element of your job and how you are 
evaluated, meaning energy management.
    That hasn't happened to the level it needs to yet. So I 
think that in every Agency should be brought in in a good, but 
energetic way, the way it happened today, and be talked to 
about your goals and the objectives and the laws that are in 
place, and what they are doing to fulfill it. Give them a 
chance to do what the Commissioner did today, which is to be 
able to show you that they actually are doing a lot, but that 
there is more that can be done. So that is one thing he said.
    The other, on lighting, lighting is just a huge opportunity 
for us. The Alliance to Save Energy has entered into a 
coalition with some other environmental groups and Phillips, 
which is one of the world's largest lighting manufacturers, to 
call for the phase-out of incandescent light bulbs, inefficient 
incandescent light bulbs in the United States over the next 
decade. We are working to bring others into that coalition.
    GSA talked about how important it is and how many billions 
and billions and billions of dollars you can save by moving 
away from those inefficient lighting technologies. That I found 
very encouraging.
    The other that I think is very important that he mentioned, 
he mentioned about renewables, but payback periods being long 
enough that the agencies can be willing to do it, and that it 
will make sense to them on a cost-effective basis, and to keep 
money coming into the funnel. Some of the ESCO projects, the 
Energy Savings Company projects, may have payback periods that 
are 10 years to 15 years. However, the Federal Government isn't 
paying anything on that loan, if you will. The payment is 
coming out of the energy savings. In fact, in some instances, 
the agencies begin to save from day one. They share the savings 
with the energy service company. So those kinds of things I 
think are important.
    Senator Carper. Hold it right there.
    Let me go to Ms. Townshend to ask her to answer the same 
first question. Anything from Commissioner Winstead's comments 
that you would like to emphasize?
    Ms. Townshend. Our industry does see GSA as a leader in the 
green building standards, and they have done an excellent job 
on the LEED-certified projects thus far. To go to Senator 
Alexander's point earlier, they are encouraging designers to 
maintain the aesthetics and the desirability of the building, 
as well as the energy efficiency.
    I do think the Commissioner made an important point about 
how site-specific and purpose-specific the design or retrofit 
of each building has to be. That can be an expensive and time 
consuming process. It does require a lot of support to make 
that happen.
    Senator Carper. Thanks.
    Second question. Go ahead, Ms. Callahan.
    Ms. Callahan. OK. The second one, in terms of what are the 
things that we would do if I could talk outside the scope of 
the committee, I think the things that you mentioned, research 
and development and putting money into that. We have 
systematically since 2002 cut the funds into energy efficiency 
research and development programs at the Department of Energy. 
They are down by one-third. We need to reinvest. You need to 
invest more to save more money.
    Senator Carper. I wonder if that reflects the President's 
budget request for 2008?
    Ms. Callahan. The President's budget request for 2008 again 
shows somewhat of a decrease in the funds. What we are 
encouraged by is that you all in the continuing resolution 
bumped up the energy efficiency and renewable energy budget by 
$300 million, and we are taking that as a sign that the 
appropriators will again invest more in that in 2008 and 
beyond, since they were willing to go at such a high level in 
the budget.
    Senator Carper. That is a pretty good bump.
    Ms. Callahan. It is a pretty good bump, and we really 
appreciate it. I think it will put to very good use.
    I would mention that for every R&D dollar, there is a 
National Academy of Sciences study that shows for every dollar 
that the Federal Government is investing in its energy 
efficiency programs, there is a $17 return on that investment 
back into our economy in terms of energy savings and investment 
in new technology.
    Senator Carper. Who says it is $17 to $1?
    Ms. Callahan. It is $17 to $1, the National Academy of 
Sciences. That was a study that was done on the DOE programs.
    The second area is tax credits. You mentioned that. That is 
something that we believe can really be a market transformer. 
Some were put in place in 2005 in the Energy Policy Act, but 
they expired too soon, particularly the commercial building tax 
incentives. They have already been extended for a year, but I 
am sure that my fellow witness can tell you that to plan, 
execute, and construct a building is a 5- or more year window, 
and those tax incentives are just simply not available long 
enough to have a meaningful impact. So that is another area.
    Then finally, standards. In addition to putting the carrots 
out with tax incentives to get the better products out there, 
we need to make sure that we say as a Country there is a 
certain minimum efficiency level for our clothes washers, our 
air conditions, our televisions, our cell phones that we going 
to allow. So we need to begin to more aggressively establish 
minimum energy efficiency standards.
    Senator Carper. Thank you.
    Ms. Townshend.
    Ms. Townshend. I would agree strongly with two of those 
aspects. The tax credits are important in motivating building 
owners and developers, and the time to develop a project is 
long. So they need continuing encouragement on the financial 
side to incorporate green building.
    However, the good news about that is that the cost of green 
building is almost down to zero. A few years ago, we would have 
said it was a 10 percent premium. Now frequently it is not a 
premium at all. So that proves that the marketplace is working 
with us to make things more achievable.
    I think watching the marketplace is the other key thing we 
all need to do. More products are coming in. We need to have 
standards for those products, but be aware of the technology 
innovations that are coming online every day.
    Senator Carper. All right. Any closing words?
    Ms. Callahan. Well, the third one, lessons learned from 
beyond. There is a lot that is out there. I would like to say, 
though, I have been over to Europe a couple of times talking to 
folks over there, and then we host international folks.
    The United States is doing a lot and we are doing a lot 
more than we are being credited for in terms of energy 
efficiency. It is often overlooked what we are doing, because 
we are not doing it under the banner of climate change, the way 
so many other countries are. But I would like to just make that 
note that it is remarkable what we are doing, and particularly 
the businesses in the United States leading, and the Federal 
Government.
    But the thing that I think strikes me, the one thing, 
because I know I am running out of time, they in many countries 
more appropriately price energy. When energy prices are high, 
that sends a signal and people respond accordingly. When 
gasoline prices went over $3 a gallon, you saw a downturn in 
the market for gas guzzling SUVs.
    There is a reason in Europe that they are diesel. Diesel- 
fueled vehicles are very fuel-economic vehicles, and it is 
because of the government's requirement and the taxing that 
makes the energy prices high.
    So I think that that is something that the Congress, as 
tough as that is, really needs to look at. Are we appropriately 
pricing energy when you look at the impact it is having on our 
environment, on our energy security, and on our economy?
    Senator Carper. Good points. Thank you.
    My time has expired. The Chairman has been very generous.
    Ms. Townshend. I would just say that the building trades 
really want to do a good job, and that is the message coming 
from the industry. So that cultural push is there to support 
what you are doing.
    Senator Carper. All right. Thanks.
    Again, to our witnesses, thank you so much.
    Madam Chair, maybe for most people on our committee, this 
is not an exciting moment. I just think this is such an 
exciting issue for us to be tackling, and I applaud your 
leadership and look forward to supporting what you put 
together.
    Senator Boxer. Senator, thank you so much.
    Let me say this. I agree with you, Ms. Callahan. A lot of 
things we do, we don't take the time to realize its effect. 
Now, this bill is going to lead to cost reductions in the 
running of the Federal Government, and it is also going to lead 
to reductions in greenhouse gases. The beauty of this is, it is 
this dual impact.
    So today we are taking the first step, this committee is, 
toward addressing the issues of both cost and the reduction of 
greenhouse gas emissions. The beauty of it is we have such 
wonderful support all across the spectrum. I think it is a 
confidence-builder.
    I have to say Senator Carper has been encouraging me from 
day one that I took the gavel and we had our first talks, that 
we really needed to bring bipartisanship back to the issue of 
this environment and dealing with this environment. I am so 
happy that I am working with the former Chairman on this, 
Senator Inhofe, and working with Senator Alexander, Senator 
Isakson, everybody here, as well as, of course, the various 
Democrats on the committee.
    So this is the summary. I have no more questions. I would 
like to submit a couple of questions to Ms. Callahan for the 
record because you have so much to offer us. I so appreciate 
the organization that you are with. You have been pounding away 
at this even when it wasn't popular. Now it is coming back into 
popularity to talk about energy savings. But you have been 
there since we all put our sweaters on in the 1970s--not you 
personally. You were too young, but your predecessors.
    You know, it is wonderful to know that Senators Percy and 
Humphrey teamed up. So now we are teaming up across party lines 
here.
    So let me just summarize S. 992. This hearing was about S. 
992, and we received strong support for it. It is, as I say, 
our very first bill out of this committee that addresses the 
issue of both costs and reduction of greenhouse gas emissions. 
This bill quite simply will make Federal buildings a model of 
energy efficiency.
    It is in fact very much in tune with what the President 
announced, and I see Marty has walked in, which is perfect 
timing. It is essentially looking at the Executive order, 
making it stronger, frontloading it, and working with the 
Administration, able to do this. This is very key.
    This bill will save taxpayer dollars. It will reduce 
greenhouse gas emissions. We have to make the point, and we all 
agreed on this, that buildings are responsible for 38 percent 
of greenhouse gas emissions. So by making Federal buildings the 
model of energy efficiency, we are sending a signal to 
everyone: You have a responsibility, and guess what, you will 
save money when you do these things.
    Working with the private sector, whose been right out front 
on this, and we appreciate so much Ms. Townshend's testimony 
today, we can really take much more of a leadership than we 
have up to this point, because we are in fact making it a 
priority by passing this legislation.
    The other point I don't want to miss is the matching grant 
part of this bill. It is very important because we have cities 
and counties that are asking us for help. They want to go out. 
They want to make these capital investments. They know it is 
going to bring a payback within 3, 4, or 5 years, and some even 
sooner.
    Working with Senator Inhofe, we made this program I think 
very efficient because we have said it is a pilot program for 5 
years, $20 million a year. We are capping the grants I think at 
$1 million so that we can really watch what they do. We spread 
the dollars around.
    Now, again just looking at the number of buildings. GSA 
owns 1,550 buildings and they manage at least 7,137 buildings. 
That is a lot of buildings. Looking at, again, cities and 
counties, there are 22,000 cities and counties together. If 
they each have a couple of buildings, which we know they have 
at least a couple of buildings, we are talking tens of 
thousands more buildings.
    We are saying to them, if you can prove to us that the 
payback is within 5 years, this grant is yours. If you need to 
plant trees to create shade around a very sunny building in a 
hot climate, you can use it for that. If you want to improve 
your air conditioner, you can use it for that. EPA will 
administer this program.
    We have tried to make this bill non-bureaucratic, I would 
say, and I really want to thank the CEQ for their help. I 
really want to thank my staff and the staff of Senator Inhofe. 
We will name them all tomorrow, how hard they all worked. This 
is not easy to find agreement on these things. Every word in 
this bill was subjected to many hours of discussion.
    So it took us a long time, but it was worth doing. We kept 
to our deadline.
    So here we are. I promised the Senate a confidence-building 
bill and here it is. It is ready to go. It is bipartisan. It is 
our first step to addressing the costs in Federal buildings and 
global warming. So I am very excited about it. We have a very 
important markup, I say to the staff who is here, tomorrow 
morning at 10 o'clock. I hope everyone will be here on time.
    We had a breakthrough on WRDA. We are going to mark that 
up. Yes, tomorrow. So we will have WRDA coming out of this 
committee. We will have S. 992. The Public Buildings Cost 
Reduction Act of 2007 will also come out of the committee, as 
well as a couple of nominations, a courthouse naming and so on.
    So we have a busy schedule tomorrow.
    Thanks again to all of the witnesses today. GSA was 
terrific. I think our two witnesses here were excellent.
    Senator Carper, I want to thank you. I want to thank 
Senators Inhofe, Alexander, Klobuchar, and Sanders for all 
participating.
    We stand adjourned.
    [Whereupon, at 11:33 a.m. the committee was adjourned, to 
reconvene at the call of the chair.]
  

                                  <all>

</pre></body></html>
